<html>
<title> - MITIGATING THE IMPACT OF VOLCANIC ASH CLOUDS ON AVIATION: WHAT DO WE NEED TO KNOW?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                        MITIGATING THE IMPACT OF
                    VOLCANIC ASH CLOUDS ON AVIATION:
                        WHAT DO WE NEED TO KNOW?

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 5, 2010

                               __________

                           Serial No. 111-93

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
*61-778                  WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                HON. GABRIELLE GIFFORDS, Arizona, Chair
DAVID WU, Oregon                     PETE OLSON, Texas
DONNA F. EDWARDS, Maryland           F. JAMES SENSENBRENNER JR., 
MARCIA L. FUDGE, Ohio                    Wisconsin
PARKER GRIFFITH, Alabama             DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
BARON P. HILL, Indiana               MICHAEL T. McCAUL, Texas
CHARLES A. WILSON, Ohio                  
ALAN GRAYSON, Florida                    
SUZANNE M. KOSMAS, Florida               
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant









                            C O N T E N T S

                              May 5, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Gabrielle Giffords, Chairwoman, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

Statement by Representative Pete Olson, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    12

                               Witnesses:

Dr. Tony Strazisar, Senior Technical Advisor, Aeronautics 
  Research Mission Directorate, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    13
    Written Statement............................................    15

Dr. Jack A. Kaye, Earth Science Division, National Aeronautics 
  and Space Administration
    Oral Statement...............................................    19
    Written Statement............................................    21

Ms. Victoria Cox, Senior Vice President, Nextgen and Operations 
  Planning, Air Traffic Organization, Federal Aviation 
  Administration
    Oral Statement...............................................    26
    Written Statement............................................    27

Captain Linda M. Orlady, Executive Air Safety Vice Chair, Air 
  Line Pilots Association, International
    Oral Statement...............................................    30
    Written Statement............................................    31

Mr. Roger Dinius, Flight Safety Director, GE Aviation
    Oral Statement...............................................    35
    Written Statement............................................    36

Discussion
  Characterizing the Risk........................................    39
  The European Response..........................................    40
  Coordinating Research Among Agencies...........................    41
  The Use of Simulations for Training............................    42
  Engine Design..................................................    43
  European Consultations.........................................    45
  Detecting Contaminants.........................................    45
  Human Factor...................................................    46
  NASA DC-8 Experience...........................................    46
  Detection Systems..............................................    48
  Future Remote Sensing..........................................    49
  Priorities.....................................................    50

              Appendix: Answers to Post-Hearing Questions

Dr. Tony Strazisar, Senior Technical Advisor, Aeronautics 
  Research Mission Directorate, National Aeronautics and Space 
  Administration.................................................    54

Dr. Jack A. Kaye, Earth Science Division, National Aeronautics 
  and Space Administration.......................................    57

Ms. Victoria Cox, Senior Vice President, Nextgen and Operations 
  Planning, Air Traffic Organization, Federal Aviation 
  Administration.................................................    59

Captain Linda M. Orlady, Executive Air Safety Vice Chair, Air 
  Line Pilots Association, International.........................    61

Mr. Roger Dinius, Flight Safety Director, GE Aviation............    63

 
 MITIGATING THE IMPACT OF VOLCANIC ASH CLOUDS ON AVIATION: WHAT DO WE 
                             NEED TO KNOW?

                              ----------                              


                         WEDNESDAY, MAY 5, 2010

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Gabrielle 
Giffords [Chairwoman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                   Mitigating the Impact of Volcanic

                        Ash Clouds on Aviation-

                        What Do We Need to Know?

                              may 5, 2010
                            10 a.m.-12 p.m.
                   2318 rayburn house office building

I. Purpose

    On May 5, 2010 the Subcommittee on Space and Aeronautics will hold 
a hearing on the research needed to improve our understanding of the 
impact of volcanic ash clouds on aircraft and aircraft operations and 
what can be done to mitigate that impact. Last year, when the Mount 
Redoubt volcano erupted southwest of Anchorage, one of the operating 
airlines grounded its fleet, diverted flights and wrapped the engines 
of its parked planes in plastic sealant. Most recently, the eruption of 
Iceland's Eyjafjallajokull volcano paralyzed air travel in Europe for 
six days, is reported to have inconvenienced hundreds of thousands of 
passengers around the world, and is projected to cause airline revenue 
losses of at least $1.7 billion. At this hearing, the Subcommittee will 
examine the role Federal research can play in:

        <bullet>  Characterizing the damage volcanic ash causes to 
        aircraft and aircraft engines;

        <bullet>  Devising ways to minimize the negative effects of 
        volcanic ash on aircraft and aircraft systems such as engines;

        <bullet>  Improving the modeling, detection, and prediction of 
        how volcanic ash clouds propagate and dissipate, particularly 
        through the integrated use of civil space-based assets;

        <bullet>  Informing guidelines and regulations that establish 
        what aircraft should do when encountering volcanic ash clouds 
        and when it is safe to fly in airspace contaminated with 
        volcanic ash; and

        <bullet>  Improving air traffic management procedures, 
        capabilities and features, including those planned for the new 
        NextGen air traffic control system, to efficiently circumvent 
        contaminated airspace.

II. Planned Witnesses:

Dr. Tony Strazisar
Senior Technical Advisor
Aeronautics Research Mission Directorate
National Aeronautics and Space Administration
[Substituting for Associate Administrator Jaiwon Shin]

Dr. Jack A. Kaye
Earth Science Division
National Aeronautics and Space Administration

Ms. Victoria Cox
Senior VP, NextGen and Operations Planning
Air Traffic Organization
Federal Aviation Administration

Captain Linda M. Orlady
Executive Air Safety Vice Chair
Air Line Pilots Association, International

Mr. Roger Dinius
Flight Safety Director
GE Aviation

III. Overview

    Following the biggest disruption in air travel since September 11, 
2001, there is much discussion in Europe about the response to the 
volcanic ash cloud emergency created by the Eyjafjallajokull volcano. 
Some of the discussion focuses on whether the closure of European 
airspace and its duration were necessary in the first place. The 
controversy in Europe over the United Kingdom's Civil Aviation 
Authority's (CAA) decision to close British airspace and the 
authority's subsequent permission to allow resumption of flights in 
specified areas highlights the challenge aviation regulators face in 
light of insufficient scientific data to establish (1) the volcanic ash 
contaminant level below which air travel is safe and permissible; (2) 
the atmospheric location and concentrations of ash such that safe 
flying corridors can be determined on a real-time basis; and (3) the 
damage, both immediate and long-term, that volcanic ash inflicts on 
aircraft, particularly their engines.
    Although the disruption caused by the Icelandic volcano is not the 
first time air travel has been impacted by volcanic ash, the magnitude 
of the disruption is the greatest experienced to date. Anecdotal 
evidence from several incidents where aircraft have previously 
encountered volcanic ash alerted aviation regulatory bodies on the 
dangers of flying through such conditions. Several near-catastrophic 
incidents involving volcanic ash have occurred:

        <bullet>  In 1982, after flying through an ash cloud, a British 
        Airways Boeing 747 near Jakarta, Indonesia lost all four of its 
        engines as they choked on the ash and flamed out. Ash was 
        reported to have filled the cabin through air vents and the 
        cockpit window was severely scratched. Subsequently, the pilots 
        were able to restart three of the four engines and land safely 
        in Jakarta.

        <bullet>  In 1982, one month after the British Airways 
        incident, a Singapore Airlines Boeing 747 lost two of its four 
        engines and was forced to land in Jakarta because of an ash 
        encounter.

        <bullet>  In 1989, a KLM Royal Dutch Airlines Boeing 747 
        encountered an ash cloud caused by Mount Redoubt while 
        descending into Anchorage International Airport. The aircraft 
        lost all four engines and about half of its instruments failed. 
        Pilots were able to restart all four engines and landed safely.

    In response to these incidents, and because there were no agreed 
upon values of ash concentration that constitute a hazard to aircraft 
engines, the International Civil Aviation Organization (ICAO), a U.N. 
agency, recommended avoidance of volcanic ash clouds as the preferred 
course of action. ICAO also created a worldwide monitoring system 
composed of 9 Volcanic Ash Advisory Centers (VAAC). The Washington VAAC 
and Anchorage VAAC are operated by the National Oceanic and Atmospheric 
Administration (NOAA). [Attachment I shows the VAACs and their areas of 
responsibility]. According to the Federal Aviation Administration 
(FAA), the problem of ash clouds in the United States generally occurs 
in Alaska, Hawaii or the Pacific Northwest. In addition, in part to 
address the hazard posed by airborne volcanic ash in the North Pacific, 
the U.S. Geological Survey (USGS), in cooperation with the University 
of Alaska Fairbanks Geophysical Institute and the Alaska Division of 
Geological and Geophysical Surveys, established the Alaska Volcano 
Observatory (AVO) with offices in Anchorage and Fairbanks. The AVO 
provides hazard assessments, updates and warnings of volcanic activity 
in Alaska.
    NASA has first-hand knowledge of the effects of flying through 
volcanic ash clouds and the delayed effect on jet engine performance. 
When its scientists were flying in a DC-8 research aircraft en route to 
Sweden in February 2000, they flew for about 8 minutes through an ash 
cloud, a fact unknown to the pilots until they were alerted by on-board 
scientists who had noticed the event using special instrumentation; 
conventional radar equipment is incapable of discerning volcanic ash 
clouds. Although the pilots saw no change in performance in the 
aircraft, either immediately after being told of the encounter or even 
after 60 hours of flying in Sweden, a borescopic inspection was 
performed on all four engines following the aircraft's return to the 
U.S. Results of the analysis caused NASA to send one of the engines for 
an overhaul. The agency found that ash clogged holes that provide bleed 
air cooling to turbine blades, and also left deposits on the turbine 
blades after ash entered the combustion chamber and melted. [See 
pictures of damage to one of the engines in Attachment II] The 
maintenance factory told NASA that they had substantially decreased the 
life of the engines and that they would have noticed a degradation in 
performance in as little as a hundred flight hours because of 
overheating of the engine fan blades. All four engines were 
subsequently overhauled. Dr. Jaiwon Shin, a witness at the hearing, can 
provide details on NASA's related aeronautics research activities. He 
will be accompanied by Mr. Thomas Grindle who is familiar with the 
events associated with the February 2000 flight.
    NASA does not have operational responsibility for observation and 
analysis of volcanic gas and aerosol emissions. However, its fleet of 
research spacecraft provides data that are directly applicable to 
understanding the hazards presented by these phenomena. According to 
NASA, in response to the recent European situation, it is providing 
near-real-time information on volcanic sulfur dioxide and ash aerosols 
from the Ozone Monitoring Instrument aboard the Aura satellite for the 
VAACs in London and Toulouse, in collaboration with NOAA. NASA states 
that the information provided to the London and Toulouse VAACs had been 
previously available for sectors covering the Americas and the Pacific 
(in collaboration with the Anchorage and Washington VAACs). Numerous 
other NASA spacecraft instruments provide important data relevant to 
the problem of volcanic ash clouds. One example is data recently 
acquired by the Multiangle Imaging SpectroRadiometer instrument on the 
Terra spacecraft that provide not only the horizontal extent of the 
plume over Iceland but detailed information about its vertical extent 
as well. In addition to providing measurements and information to aid 
decision-makers in responding to the volcanic event and its aftermath, 
these data from NASA's research satellites are being utilized in 
several ongoing NASA-sponsored scientific studies of solid Earth 
processes, atmospheric composition and air quality, Earth's radiation 
balance and aviation forecasting improvement methodologies within 
NASA's Earth Science Division's Research and Analysis (R&A) and Applied 
Sciences programs. Dr. Jack Kaye, a witness at the hearing, can provide 
additional details on the capabilities of NASA's Earth observation 
satellites.
    The Airline Pilots Association (ALPA), the largest airline pilot 
union in the world, representing nearly 53,000 pilots at 38 U.S. and 
Canadian airlines, has devoted several years to expanding the database 
of operationally relevant information on the potential hazard caused by 
volcanic ash and improving the warning system necessary to reduce 
unplanned encounters with hazardous ash clouds. ALPA believes its 
information may be useful towards understanding the hazard; 
understanding recommended practices for avoidance, if possible; 
achieving survival in the event of an unexpected encounter; and 
finally, reporting the experience. Regarding the recent situation in 
Europe, it warned members to identify alternate routes to avoid ash 
clouds. Captain Linda Orlady, a witness at the hearing, can provide 
additional details on ALPA's relevant activities.
    When the ban over air travel was lifted in Europe, officials broke 
the affected areas of airspace into three tiers: normal flight zones 
where ash no longer poses a risk, no-fly zones where ash remains in 
high concentrations, and intermediate, potentially hazardous zones 
where flights can proceed with caution, subject to route restrictions 
and other limitations. The UK Civil Aviation Authority (UK's equivalent 
of the FAA) lifted flight restrictions after consulting with many 
parties, including the FAA and aircraft and engine manufacturers. In a 
statement, the FAA indicated its support for the decision by the 
European Commission to resume air traffic in parts of continental 
Europe. The FAA said, in its press release, that ``This gradual, 
cautious return of operations is reliant on the track of the volcanic 
ash cloud which is being monitored closely. The FAA is continuing to 
work with the European Union and is sharing technical information and 
guidance based on previous experience managing weather and volcanic 
events that have affected portions of U.S. airspace. The FAA remains 
ready to assist both the air carriers and our colleagues in Europe to 
do whatever is necessary to help stranded passengers and to safely 
return air service between our continents.'' In addition, the FAA 
released on April 22, 2010 a Special Airworthiness Information Bulletin 
(SAIB) advising ``owners and operators of aircraft equipped with 
turbine engines that operate in airspace where volcanic ash may be 
present, of recently issued communications from engine manufacturers.'' 
SAIB Number NE-10-28 recommends that:

         ``Before flying from the United States to Europe or within 
        Europe, aircraft owners and operators should review the 
        following recommendations:

        <bullet>  Although the FAA does not recommend engine operation 
        or flight into a visible volcanic ash cloud, we do recommend 
        that you obtain definitive information on operational 
        limitations around ash clouds, if any, from each of the 
        European National Authority of the State(s), of which you plan 
        flight operations.

        <bullet>  Follow all aircraft and engine manufacturer's 
        operating and maintenance instructions pertaining to operations 
        in airspace where volcanic ash may be near or present.

        <bullet>  Report any inadvertent encounter with volcanic ash or 
        relevant findings, including abnormal engine behavior, to the 
        respective type certificate holders of the aircraft and 
        engines.''

    Ms. Victoria Cox, a witness at the hearing, can provide additional 
details on FAA's collaborative efforts to assist other aviation 
regulators as well as how similar situations may be managed under the 
NextGen air traffic control system. In addition, Mr. Roger Dinius, also 
a witness at the hearing, can provide details on GE Aviation's role in 
helping European aviation regulators establish conditions for flight 
resumption.
    There is widespread agreement on the need for a better 
understanding of the effects of volcanic ash on aircraft and how 
particulates propagate in the atmosphere. Of particular concern is the 
small amount of research so far on the cumulative impact of flying for 
extended amounts of time through even low levels of volcanic ash. What 
knowledge we still lack and how we go about gaining that better 
understanding--possibly through additional research, data collection 
and computer modeling--will be discussed during this hearing.

IV. Issues

Aeronautics Research and Information Needs

        <bullet>  What is known about the impact of aircraft flying 
        through volcanic ash clouds? What are the areas of greatest 
        uncertainty in our knowledge and what research is needed to 
        reduce that uncertainty?

        <bullet>  What research is needed to better understand when and 
        under what conditions (e.g., size of particulates, ash 
        concentration, and height of the cloud) it is safe to fly 
        through airspace that has been contaminated with volcanic ash 
        particulates? Is there a way to characterize the risk of flying 
        under different conditions?

        <bullet>  What research is needed to develop sensors and 
        instrumentation to warn aircraft operators of volcanic ash 
        conditions?

        <bullet>  Can human factors research enhance the training of 
        pilots who might deal with volcanic ash conditions?

        <bullet>  What is known about how much damage volcanic ash can 
        inflict on aircraft engines? What research can help engine 
        designers determine the extent to which the safety of aircraft 
        engines could be enhanced on future aircraft that inadvertently 
        fly through volcanic ash conditions?

        <bullet>  What is the extent of research on the effects of 
        aircraft flying through volcanic ash clouds by the National 
        Aeronautics and Space Administration (NASA) and the Federal 
        Aviation Administration (FAA)? What has been learned?

        <bullet>  What additional research is needed to help establish 
        limits and conditions under which it is safe to fly in 
        contaminated airspace? What level of resources would such 
        research entail?

        <bullet>  To what extent are Federal research programs on 
        aircraft flying through volcanic ash coordinated and how easy 
        or difficult is it to share the research results with relevant 
        stakeholders? To what extent are U.S. and international 
        research programs coordinated?

        <bullet>  Are there other sources of research (e.g. by the 
        commercial, or private, non-government sectors) on the effects 
        of aircraft flying in volcanic ash conditions?

Detection, Monitoring and Modeling Activities and Assets

        <bullet>  What civil Federal capabilities, such as Earth-
        observation satellites, are used to assist in detecting and 
        monitoring volcanic ash cloud propagation and dispersion? How 
        effective are they?

        <bullet>  To what extent will planned Earth observing 
        satellites contribute to the detection, monitoring and 
        understanding of volcanic ash clouds and their composition?

        <bullet>  What enhancements to space-based or airborne sensors, 
        technologies, or techniques are needed to further our 
        understanding of volcanic ash clouds and particulate 
        dispersion?

        <bullet>  How effective are current modeling techniques in 
        forecasting the propagation of volcanic ash clouds?

        <bullet>  How are the scientific results of research and 
        monitoring of volcanic ash clouds coordinated, analyzed, 
        filtered and disseminated to decision makers who are 
        responsible for determining when it is safe to fly, and what, 
        if any, improvements need to be made to ensure the 
        effectiveness of coordinating and disseminating the 
        information?

        <bullet>  What is the extent of collaboration, both nationally 
        and internationally, in the detection and monitoring of 
        atmospheric volcanic ash conditions and dissemination of 
        warnings?

Air Traffic Management/NextGen and Voluntary Reporting Mechanisms

        <bullet>  What air traffic regulations are currently in effect 
        to manage aircraft operations in the event of a volcanic ash 
        cloud event, such as those experienced in Alaska? Are there 
        contingency plans for dealing with such events? What 
        information is needed to establish ``safe'' flight corridors?

        <bullet>  What was FAA's role in collaborating with 
        international aviation regulatory bodies to establish safe 
        conditions for resumption of air travel following the eruption 
        of the Eyjafjallajokull volcano?

        <bullet>  Can research help inform the establishment of 
        airspace management and air traffic control procedures in the 
        event of a volcanic ash cloud situation? If so, in what areas 
        is research needed and who should conduct such research in the 
        U.S.?

        <bullet>  Will the management of aircraft flying in volcanic 
        ash situations be handled differently under NextGen? What 
        information does NextGen need to automatically assign safer air 
        traffic routes? Is that information available today?

        <bullet>  Have any of the voluntary safety reporting 
        mechanisms, such as the Aviation Safety Information and Sharing 
        (ASIAS) System, identified issues associated with aircraft 
        flying through volcanic ash clouds?
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairwoman Giffords. This hearing will now come to order.
    Good morning, everyone. It is with real pleasure that we 
invite you today to the Subcommittee's hearing. We have an 
impressive panel of experts, and I am really fortunate to have 
had a chance to speak, before we started, with some of them. We 
look forward to having a very good and timely discussion.
    As you know, the eruption of the volcano in Iceland forced 
the closure of European airspace, paralyzing air traffic travel 
for 6 days. Hundreds of thousands of passengers around the 
world, including many Americans, in fact, friends and family 
members I think of all of us, were stranded and airline revenue 
losses may end up reaching at least $1.7 billion.
    While the ink has yet to dry on that episode, one thing is 
certainly clear: Aviation regulators have insufficient 
scientific data to establish, one, at what level of volcanic 
ash contamination air travel is safe; two, where ash clouds are 
and how concentrated they are on a real-time basis; and three, 
the extent of damage, both immediate and long-term, that 
volcanic ash inflicts on aircraft and particularly on their 
engines.
    Moreover, the dangers to aircraft and passengers are not 
hypothetical, as our witnesses will testify. For example, in 
1982, after flying through an ash cloud, a British Airways 
Boeing 747 near Jakarta, Indonesia, lost all four of its 
engines as they choked on the ash and flamed out. Ash was 
reported to have filled the cabin through air vents and the 
cockpit window was severely scratched. Also in 1982, one month 
after the British Airways incident, a Singapore Airlines Boeing 
747 lost two of its four engines and was forced to land in 
Jakarta because of an ash encounter. In 1989, a KLM Royal Dutch 
Airlines Boeing 747 encountered an ash cloud caused by Mount 
Redoubt while descending into Anchorage International Airport 
in Alaska. The aircraft lost all four engines and half of its 
instruments failed as well.
    I strongly believe that this Subcommittee should, as one of 
its primary responsibilities, identify space and aeronautics 
issues of concern to the Nation and encourage the development 
of practical solutions if possible. Oftentimes, focused 
research can help.
    While we have been fortunate not to have experienced this 
type of widespread volcano-induced airspace closure that Europe 
just experienced, we should view this as a wake-up call for all 
of us. The reality is that we do have some relevant experience 
and technologies that can be brought to bear on this problem. 
As you will hear later, the inadvertent encounter of a volcanic 
ash cloud by a NASA research aircraft in 2000 showed how much 
damage volcanic ash can inflict to aircraft engines and the 
hidden nature of that damage. And NASA was recently called on 
by our European friends to monitor, using its unique satellite-
based instruments, the ash plume as it made its way towards 
continental Europe.
    As our country's aviation regulator, FAA collaborates with 
other Federal agencies to ensure that our Nation's air traffic 
safely circumvents any problematic conditions, including 
volcanic ash situations.
    Avoiding volcanic ash clouds certainly is not as easy as it 
sounds. Conventional radar cannot discern ash particulates. 
Pilots are keenly aware of this and have been trained on what 
to do when advised of potential problems.
    Finally, as you will hear today, engine manufacturers 
provided assistance during the decision-making period leading 
up to the reopening of Europe's skies.
    I called today's hearing so that this Subcommittee can help 
determine what we know and where our knowledge is still 
lacking. Most importantly, I would like to find out if any 
additional research can enhance our understanding of the impact 
of volcanic ash on aviation so that we can ensure that our 
reaction to future situations is based on sound data and 
information.
    With that, I want to again welcome our witnesses.
    [The prepared statement of Ms. Giffords follows:]
          Prepared Statement of Chairwoman Gabrielle Giffords
    Good morning, it's a pleasure to welcome you to today's 
Subcommittee hearing. We have an impressive panel of experts appearing 
before us this morning, and I look forward to a good discussion.
    Today's hearing is timely. As you know, the eruption of the volcano 
in Iceland forced the closure of European airspace, paralyzing air 
travel for six days. Hundreds of thousands of passengers around the 
world--including many Americans--were stranded and airline revenue 
losses may reach at least $1.7 billion.
    While the ink has yet to dry on that episode, one thing is clear:
    Aviation regulators have insufficient scientific data to establish 
(1) at what level of volcanic ash contamination air travel is safe; (2) 
where ash clouds are and how concentrated they are on a real-time 
basis; and (3) the extent of damage, both immediate and long-term, that 
volcanic ash inflicts on aircraft and particularly on their engines.
    Moreover, the dangers to aircraft and passengers are not 
hypothetical--as our witnesses will testify.
    For example, in 1982, after flying through an ash cloud, a British 
Airways Boeing 747 near Jakarta, Indonesia lost all four of its engines 
as they choked on the ash and flamed out. Ash was reported to have 
filled the cabin through air vents and the cockpit window was severely 
scratched.
    Also in 1982--one month after the British Airways incident--a 
Singapore Airlines Boeing 747 lost two of its four engines and was 
forced to land in Jakarta because of an ash encounter.
    In 1989, a KLM Royal Dutch Airlines Boeing 747 encountered an ash 
cloud caused by Mount Redoubt while descending into Anchorage 
International Airport in Alaska. The aircraft lost all four engines and 
half of its instruments failed.
    I strongly believe that this Subcommittee should, as one of its 
primary responsibilities, identify space and aeronautics issues of 
concern to the Nation and encourage the development of practical 
solutions if possible. Oftentimes, focused research can help.
    While we have been fortunate not to have experienced the type of 
widespread volcano-induced airspace closure Europe just experienced, we 
should view this as a wake-up call.
    The reality is that we do have some relevant experience and 
technologies that can be brought to bear on the problem.
    As you will hear later, the inadvertent encounter of a volcanic ash 
cloud by a NASA research aircraft in 2000 showed how much damage 
volcanic ash can inflict to aircraft engines and the hidden nature of 
that damage.
    And NASA was recently called on by our European friends to monitor, 
using its unique satellite-based instruments, the ash plume as it made 
its way towards continental Europe.
    As our country's aviation regulator, FAA corroborates with other 
Federal agencies to ensure that our Nation's air traffic safely 
circumvents any problematic conditions, including volcanic ash 
situations.
    Avoiding volcanic ash clouds is not as easy as it sounds. 
Conventional radar cannot discern ash particulates. Pilots are keenly 
aware of this and have been trained on what to do when advised of 
potential conditions.
    Finally, as you will hear today, engine manufacturers provided 
assistance during the decision-making period leading up to the 
reopening of Europe's skies.
    I called today's hearing so that the Subcommittee can help 
determine what we know--and where our knowledge is still lacking.
    Most importantly, I would like to find out if additional research 
can enhance our understanding of the impact of volcanic ash on aviation 
so that we can ensure that our reaction to future situations is based 
on sound data and information.
    With that, I again want to welcome our witnesses, and I now will 
yield to Mr. Olson for any opening remarks he would care to make.

    Chairwoman Giffords. And now I yield to Mr. Olson for any 
opening remarks that he would like to make.
    Mr. Olson. Madam Chairwoman, thank you for calling this 
morning's hearing. I greatly appreciate that.
    I would like to thank our witnesses for your appearance 
today. I appreciate your expertise and your willingness to 
share your perspective with us on this very important issue of 
how our air traffic management system can best respond to 
volcanic eruptions and whether any additional research is 
needed to improve safety and system performance.
    The recent volcanic eruption in Iceland was a powerful 
example of the interconnected world we live in today. Travelers 
brace for almost anything but delays due to the eruption of an 
Iceland volcano is not something many would have predicted when 
they drove to the airport that day.
    As a pilot myself, I am very interested to learn what we 
know of the impact volcanic ash has on aircraft. I am also 
eager to learn how our air traffic system weighs the known and 
unknown risks associated with volcanic ash, how our system 
responds when confronted with such a circumstance, and coupling 
that knowledge with the desire of thousands of travelers 
wanting to get to their destinations and airlines eager to get 
them there.
    Post 9/11, the world has been vigilant to prevent the 
disruption of air travel as we saw on that day, but who could 
have imagined the second biggest disruption since that day 
would have been caused by a volcano in Iceland?
    That leads to another topic that we need to discuss today: 
What is the appropriate level of funding we should invest in 
research and development on events or circumstances that would 
be classified as rare or highly unlikely? It is easy to imagine 
that prior to the Iceland volcano erupting, many experts would 
have likely argued that funding additional research on issues 
related to the impact of volcanic ash on airplanes, it would be 
a low priority. Some might even say a waste of money. But 
events of the previous month may now cause many to reconsider.
    Are there other calamities like this that are rare but 
highly disruptive that we should be researching? These 
questions are difficult and frankly might be impossible to 
answer but learning from this situation will help us going 
forward, and for that I am pleased we are having today's 
hearing.
    Thank you much for coming. I yield back my time, Madam 
Chairwoman.
    [The prepared statement of Mr. Olson follows:]
            Prepared Statement of Representative Pete Olson
    Madam Chairwoman, thank you for calling this morning's hearing. I'd 
like to thank our witnesses for their appearance today. I appreciate 
your expertise and willingness to share your perspective with us on the 
very important issue of how our air traffic management system can best 
respond to volcanic eruptions and whether any additional research is 
needed to improve safety and system performance.
    The recent volcanic eruption in Iceland was a powerful example of 
the interconnected world we live in today. Travelers brace for almost 
anything, but delays due to the eruption of an Icelandic volcano is not 
something many would have predicted when they drove to the airport that 
day. As a pilot myself, I'm very interested to learn about what we know 
of the impact volcanic ash has on aircraft. I'm also eager to learn how 
our air traffic system weighs known and unknown risks associated with 
volcanic ash, how our system responds when confronted with such a 
circumstance, and coupling that knowledge with the desire of thousands 
of travelers wanting to get to their destinations and airlines eager to 
get them there.
    Post 9-11, the world has been vigilant to prevent the disruption of 
air travel as we saw on that day. But who could have imagined the 
second biggest disruption since that day would have been caused by a 
volcano in Iceland.
    That leads to another topic we need to discuss here today. What is 
the appropriate level of funding we should invest in research and 
development on events or circumstances that would be classified as rare 
or unlikely? It is easy to imagine that prior to the Iceland volcano 
erupting, many experts would likely have argued that funding additional 
research on issues related to the impact of volcanic ash on airplanes 
would be a low priority. Events of the previous month may now cause 
many to reconsider. Are there other calamities like this that are rare 
but highly disruptive that we should be researching? These questions 
are difficult, and frankly might be impossible to answer, but learning 
from this situation will help us going forward and for that I am 
pleased we are having today's hearing.
    I thank you and yield back the balance of my time.

    Chairwoman Giffords. Thank you, Mr. Olson.
    If there are members who wish to submit additional opening 
statements, your statements will be submitted for the record.
    At this time I would like to introduce our witnesses. First 
up, we have Dr. Tony Strazisar, who will be representing Dr. 
Jaiwon Shin of NASA's Aeronautics Research Mission Directorate. 
Dr. Shin unfortunately can't be here with us today but we wish 
him the best. We understand that he is under the weather, but 
Dr. Strazisar is a senior technical advisor for the Aeronautics 
Research Mission Directorate at NASA. Welcome. We also have Dr. 
Jack Kaye, who is a member of the Earth Science Division at 
NASA. Good morning. Ms. Victoria Cox, who is a Senior Vice 
President of NextGen and Operations Planning in Air Traffic 
Organization at FAA. Good morning. Also, Captain Linda Orlady, 
who is the Executive Air Safety Vice Chair of the Air Line 
Pilots Association. We are very glad that you are with us this 
morning, Captain. And finally we have Mr. Roger Dinius, who is 
the Flight Safety Director at GE Aviation. Again, welcome.
    Our witnesses should know that you will each have five 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing. When you have 
completed all of your spoken testimony, we will begin with our 
first round of questions, and each member will have five 
minutes to ask questions. So we are going to begin this morning 
with Dr. Tony Strazisar.

  STATEMENT OF DR. TONY STRAZISAR, SENIOR TECHNICAL ADVISOR, 
AERONAUTICS RESEARCH MISSION DIRECTORATE, NATIONAL AERONAUTICS 
                    AND SPACE ADMINISTRATION

    Mr. Strazisar. Madam Chair Giffords, Ranking Member Olson 
and members of the Subcommittee, thank you for the opportunity 
to appear before you today. I am here to discuss NASA's past 
experiences related to the impact of volcanic ash on aircraft 
systems and operations and some past and current research 
activities conducted by NASA and the aviation community that 
could be relevant to the issue.
    The International Air Transport Association reported that 
the recent eruption of Iceland's volcano cost the world's 
airlines at least $1.7 billion and affected as many as 1.2 
million passengers a day. Many Americans were directly or 
indirectly impacted by this stoppage. Certainly there will be a 
significant assessment of this issue by the global aviation 
community in the coming months and years.
    Detecting, monitoring and understanding volcanic ash clouds 
and their composition are critical first steps in addressing 
this issue, and my colleague, Jack Kaye from NASA's Science 
Mission Directorate, is discussing this issue with the 
subcommittee today.
    Encounters with volcanic ash are known to have detrimental 
effects on modern turbine engines. Particulate erosion testing 
is not a part of commercial engine certification testing. 
Therefore, today's engines are not certified for volcanic ash 
ingestion. Engine manufacturers are currently the best source 
of information regarding the impact of volcanic ash on their 
engines and various conditions. To be safe, the current 
established practice is to avoid flight operations in the 
vicinity of known volcanic debris. As a result, volcanic ash 
ingestion is not a leading cause of aircraft safety accidents 
or issues. In fact, they are quite rare. There have been no 
known or reported aircraft fatalities as a result of flying 
through volcanic ash. Nonetheless, there are several documented 
cases of aircraft experiencing engine shutdowns and/or costly 
damage as a result of unintended encounters.
    NASA's understanding of the effects of aircraft flying 
through volcanic ash clouds comes from its evaluation of an 
unplanned in-flight encounter. Early on the morning of February 
28, 2000, a NASA DC-8 airplane, a highly instrumented research 
platform for conducting atmospheric science research, 
inadvertently flew through the fringe of a diffuse volcanic ash 
cloud produced by the Mount Hekla volcano in Iceland. This 
encounter lasted approximately 7 minutes and occurred in total 
darkness during a ferry flight from Edwards, California, to 
Kiruna, Sweden. During this flight, scientists on board the DC-
8 monitoring sensitive research instruments reported a sudden 
increase in sulfur dioxide measurements that indicated the 
presence of a volcanic ash cloud. Except for the reports from 
the onboard science team, the DC-8 crew had no indication they 
were flying through the plume from Mount Hekla. After the 
airplane returned to Edwards Air Force Base, all four engines 
were sent to the General Electric Strouther overhaul facility, 
where they were disassembled and refurbished. Detailed engine 
inspection revealed that even though this was a brief flight 
through a diffuse ash cloud, the exposure was long enough and 
engine temperatures were high enough that engine hot section 
blades and vanes were coated and cooling air passages were 
partially or completely blocked.
    NASA does not have any ongoing research efforts that are 
focused on the understanding of the impact of volcanic ash on 
aircraft engines, mainly because the volcanic ash encounters 
are very rare events and have been consistently placed at a 
very low priority for research needs by the aviation community. 
While NASA aeronautics research has not directly addressed 
impacts of volcanic ash on aviation, it is possible that some 
past and current research activities conducted by NASA and the 
aviation community could be of value to industry and airspace 
regulators as they seek to better understand the impact of 
volcanic ash and devise strategies for addressing similar 
situations in the future.
    Making the best possible use of available airports and 
airspace is critical to sustaining limited service during and 
recovering from a major disruption such as occurred last month. 
NASA-developed analysis tools can simulate air traffic 
scenario, evaluate outcomes and support decisions made by air 
traffic managers and airline operators.
    Past research in dealing with severe weather has shown that 
even the most daunting scenarios provide limited yet workable 
operational solutions. Better plume measurements and 
propagation forecasts and operational procedures together could 
contribute to air traffic management solutions to the problem 
of volcanic ash.
    Since there are so many factors that contribute to the 
severity of damage from volcanic ash, it is likely that even a 
robust research effort will lead to engines that are tolerant 
of significant amounts of ash ingestion. However, NASA research 
on integrated propulsion and control systems and robust engine 
control could have potential applicability in mitigating 
hazards associated with volcanic ash.
    Current research regarding effective interaction or 
monitoring methods for the crew under degraded engine operating 
conditions could be applied in instances where those 
circumstances are due to volcanic ash. NASA aeronautics will 
continue to make available our expertise and knowledge in these 
areas to other Federal agencies and the broader aviation 
community as they assess plans for national and global flight 
operations in these conditions.
    Thank you for your attention.
    [The prepared statement of Dr. Strazisar follows:]
                  Prepared Statement of Tony Strazisar
    Madam Chair Giffords, Ranking member Olson, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today. 
I am here to discuss NASA's past experiences related to the impact of 
volcanic ash on aircraft systems and operations, and some past and 
current research activities conducted by NASA and the aviation 
community which could be relevant to this issue.
    Airlines thrive on reliability and predictability, as witnessed by 
their published ``on-time departure'' metrics. As we have recently 
learned, volcanic eruptions, and specifically, the dispersal ash clouds 
are beyond today's predictive capabilities, thus upsetting the 
reliability of airplane operations. In light of the great uncertainty 
of the location of volcanic ash, and the extreme hazard it presents to 
jet aircraft, airlines and air traffic managers take extraordinary 
precautions to avoid flying into these danger zones. In the case of the 
recent eruption of Iceland's Eyjafjallajokull volcano, the risk was 
deemed so great that the only prudent response was to ground all 
aircraft within the danger zone, which encompassed the United Kingdom 
and most of northern Europe. The problems associated with the eruption 
in Iceland were compounded by the fact that many of the impacted 
flights were the trans-Atlantic oceanic routes, where there is no 
continuous surveillance (such as radar) and the requirement for 
proximity to contingency landing sites presents a significant 
constraint to alternate routes.
    The International Air Transport Association reported that the 
volcanic eruption cost the world's airlines at least $1.7 billion and 
affected as many as 1.2 million passengers a day. Many Americans were 
directly or indirectly impacted by this stoppage. Certainly there will 
be a significant assessment of this issue by the global aviation 
community in the coming months and years.
    Detecting, monitoring and understanding volcanic ash clouds and 
their composition are critical first steps in addressing this issue. My 
colleague, Jack Kaye, from the NASA's Science Mission Directorate is 
discussing this issue with the Subcommittee at this hearing today.

Volcanic Ash and Aircraft

    Encounters with volcanic ash are known to have detrimental effects 
on modern turbine engines. Particulate erosion testing is a part of 
some engine testing, but these tests are generally focused on abrasive 
materials such as sand, which have some material properties that have a 
different impact compared to volcanic ash. Therefore, today's engines 
are not certified for volcanic ash ingestion.
    There has been some notable research on the impact on gas turbine 
engines of ingesting dust-laden air that was conducted by the Calspan 
Advanced Technology Center in the late 1980s and early 1990s under 
sponsorship of the Defense Nuclear Agency. The Calspan team tested 
several military gas turbine engines using volcanic ash to better 
understand the impacts of dust-laden air on engine operation. An 
important research result is that there are a number of factors that 
significantly impact the effect of a volcanic ash encounter, including 
engine type, operating conditions, constituents of the ash cloud, and 
ash concentrations. This research also identified several ways that ash 
can damage an engine including: melting of ash on components in the 
engine hot sections, erosion of components, blockage of cooling 
passages in turbines, and contamination of the oil or bleed air 
systems. This research also developed and validated various potential 
recovery strategies for addressing in-flight operational problems, 
depending upon the engine and conditions encountered.
    The signs that an aircraft is in a volcanic ash condition are not 
always clear. Previous ground tests of engines by Calspan indicate that 
the warning signs of ash damage vary with engine type and that an ash 
encounter is often very difficult to discern from existing 
instrumentation until a serious problem like an engine surge or flame-
out occurs.
    Engine manufacturers currently are the best source of information 
regarding the impact of volcanic ash on their engines in various 
conditions. The Subcommittee will be hearing directly from industry 
sources about this subject at this hearing, including their experiences 
recently in facilitating the resumption of commercial operations in 
European airspace.
    To be safe, the current established practice is to avoid flight 
operations in the vicinity of known volcanic airborne debris. As a 
result, volcanic ash ingestion is not a leading cause of aircraft 
safety accidents or issues--in fact they are quite rare. There have 
been no known or reported aircraft fatalities a result of flying 
through a volcanic ash cloud. Nonetheless, there are several documented 
cases of aircraft experiencing engine shutdowns and/or costly damage as 
a result of an unintended encounter.

NASA DC-8 Volcanic Ash Incident

    NASA's understanding of the effects of aircraft flying through 
volcanic ash clouds comes from its evaluation of one unplanned in-
flight encounter. This evaluation was enabled by the presence of an 
onboard science team and specialized instrumentation for unrelated 
airborne chemistry research. These findings and lessons were developed 
from volcanic ash plume and satellite trajectory analysis, analysis of 
ash particles collected in cabin air heat exchanger filters and removed 
from engines, and data from onboard instruments and engine conditions.
    Early on the morning of February 28, 2000, the NASA DC-8 airplane, 
a highly instrumented research platform for conducting atmospheric 
science research, inadvertently flew through the fringe of a diffuse 
volcanic ash cloud produced by the Mt. Hekla volcano in Iceland. This 
encounter, which lasted approximately seven minutes, occurred in total 
darkness (no moonlight) during a ferry flight from Edwards, California 
to Kiruna, Sweden.
    This particular encounter demonstrated the difficulty of predicting 
the location of the ash plume produced by a volcanic eruption. Thirty 
five hours after the eruption, the London Volcanic Ash Advisory Center 
(VAAC), using observatory inputs, satellite pictures, radar imagery and 
pilot reports, predicted the ash plume would be south of the proposed 
DC-8 track. However, to provide an additional margin of safety, the DC-
8 flight path was adjusted an additional 200 miles north, with the 
expectation of totally avoiding any possibility of encountering the ash 
plume.
    From this research mission, we have learned that a damaging 
encounter with volcanic ash can be undetectable, even to an alerted 
flight crew. During this flight, scientists onboard the DC-8 monitoring 
sensitive research instruments reported a sudden increase in sulfur 
dioxide (SO<INF>2</INF>) measurements that indicated the presence of a 
volcanic ash cloud. Except for the reports from the on-board science 
team, the DC-8 crew had no indication they were flying through the 
plume from Mt. Hekla. In previous ash plume encounters by aircraft, the 
events were frequently accompanied by an odor in the cabin air, by 
changes in engine readings, by the frosting of windows, and at night, 
by the presence of St. Elmo's fire on forward-facing parts of the 
aircraft. NASA's DC-8 flight crew noted no change in cockpit readings, 
no St. Elmo's fire, no odor or smoke, and no change in engine 
instruments. They did notice that no stars were visible, but this is 
typical of flight through high cirrus clouds.
    Since in-flight performance checks and detailed visual inspections 
after landing in Sweden revealed no damage to the airplane or engine 
first-stage fan blades, the research campaign was completed, and the 
airplane was ferried back to Edwards Air Force Base in California. More 
complex engine borescope inspections revealed clogged cooling passages 
and some heat distress in the high temperature section of the engines. 
One engine appeared to be more heavily damaged.
    The DC-8 is powered by four General Electric CFM56-2 high bypass 
turbofan engines. All four engines were sent to the manufacturer's 
General Electric Strouther overhaul facility near Arkansas City, 
Kansas, where they were disassembled and refurbished. Their detailed 
engine inspection revealed that even though this was a brief flight 
through a diffuse ash cloud, the exposure was long enough and engine 
temperatures were high enough that engine hot section blades and vanes 
were coated and cooling air passages were partially or completely 
blocked. All engines exhibited a fine white powder coating throughout, 
leading edge erosion on high-pressure turbine vanes and blades, blocked 
cooling air holes, blistered coatings, and a buildup of fine ash inside 
passages. A blade with blocked cooling operates at a sufficiently 
higher temperature, significantly impacting blade life. Although engine 
trending did not reveal a problem, hot section parts may have begun to 
fail (through blade erosion) if flown another 100 hours, in contrast to 
the normal service life of thousands of hours. The engines were 
overhauled, at a total cost of $3.2 million.

Research That Could Benefit Future Situations

    NASA does not have any ongoing research efforts that are focused on 
understanding the impact of volcanic ash on aircraft engines, mainly 
because the volcanic ash encounters are very rare events and have been 
consistently placed at a very low priority for research needs by the 
aviation community.
    While NASA aeronautics research has not directly addressed impacts 
of volcanic ash on aviation, it is possible that some past and current 
research activities conducted by NASA and the aviation community could 
be of value to industry and airspace regulators as they seek to better 
understand the impact of volcanic ash and devise strategies for 
addressing similar situations in the future.

Operational procedures
    Making the best possible use of available airports and airspace is 
critical to sustaining limited service during, and recovering from, a 
major disruption such as Eyjafjallajokull. NASA-developed analysis 
tools can simulate air traffic scenarios, evaluate outcomes, and 
support decisions made by air traffic managers and airline operators. 
There could be some applicability of these analysis tools to decision 
support tools for the oceanic flight realm, benefiting routine daily 
operations as well as recovering from system disruptions such as ash 
plumes.
    Parallels exist between the problems presented by an ash plume and 
by severe convective weather: both form in an unpredictable manner, 
present a dynamically changing hazard to aviation, and require 
coordinated modification of flight routes. The aviation community has 
made a large, sustained investment in technology development to address 
convective weather, resulting in sensors, models, and tools that have 
significantly improved the ability to keep people and aircraft safely 
moving when subjected to adverse weather conditions. Past research in 
dealing with severe weather has shown that even the most daunting 
scenarios provide limited yet workable operational solutions.
    Better plume measurements and propagation forecasts and operational 
procedures together could contribute to air traffic management 
solutions to the problem of volcanic ash. Tracts of useable airspace 
could be identified to build routes that can be used to maximize 
traffic throughput in constrained airspace. Fleet management options 
could be assessed to quantify the advantages and impacts of different 
strategies. For example, corridors-in-the-sky that use the available 
airspace could be developed and dynamically updated based on the 
prevailing wind and plume conditions. Based on the traffic demands, 
additional reroutes could be developed as appropriate.

Sharing information about hazards
    NASA is developing new display concepts to intuitively convey new 
information sets available to pilots. One such concept could improve 
the current Notices to Airmen (NOTAM) system. Current NOTAMs of changes 
to flight conditions are not instantaneous. Expeditious datalink of 
NOTAMs with an appropriate display and notification could shorten this 
to seconds to minutes of when such events occur. NOTAMs related to 
volcanic ash activity are called ASHTAMs by the International Civil 
Aviation Organization (ICAO), and are regularly released when such 
events occur across the globe. However, such information today is very 
coarse and delayed, and is therefore open to misinterpretation. 
Improvements in display concepts, while not developed to specifically 
address the issue of hazardous ash conditions, could enable the 
provision much more detailed ash information along with real-time 
updates as they become available through air traffic service providers.
    NASA also has available data mining tools that might be of use to 
industry and regulators to make sense of data resulting from recent 
operational experiences or future tests.

Engine technologies
    Since there are so many factors that contribute to the severity of 
damage from volcanic ash, it is unlikely that even a robust research 
effort will lead to engines that are tolerant of significant amounts of 
ash ingestion. However, some NASA research in novel materials may have 
an effect of mitigating some of the negative effects from ash 
ingestion. For example, ceramic matrix composite turbine blades may 
need fewer cooling channels which would make them less susceptible to 
degraded cooling performance due to clogging. These materials may also 
have better damage tolerance qualities. Similarly, research in engine 
monitoring and instrumentation might also have applicability in this 
circumstance.
    In the 1990s, NASA conducted flight research to examine 
deteriorated engine operation and performance (the Dryden Performance 
Seeking Control research project). Extrapolating from that experience, 
NASA research on integrated propulsion and control systems and robust 
engine control (i.e. controller design and possible modification of 
actuators to extend engine operating life) could have some potential 
applicability in mitigating the hazards associated with volcanic ash. 
Current research regarding effective interaction or monitoring methods 
for the crew under degraded engine operating conditions could be 
applied in instances where those circumstances are due to volcanic ash.

Conclusion

    NASA Aeronautics will continue to make available our expertise and 
knowledge in these areas to other Federal agencies and the broader 
aviation community as they assess plans for national and global flight 
operations in these conditions.

                      Biography for Tony Strazisar
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairwoman Giffords. Thank you, Dr. Strazisar.
    Dr. Kaye, please.

STATEMENT OF DR. JACK A. KAYE, EARTH SCIENCE DIVISION, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Kaye. Good morning, Chairwoman Giffords, Ranking Member 
Olson and members of the Subcommittee. I appreciate having the 
opportunity to appear before you today to discuss NASA's earth 
science-related activities to observe and carry out scientific 
research of volcanic ash clouds.
    The recent eruption of Eyjafjallajokull highlights the 
different types of contributions that NASA's Earth Science 
program makes to the study of and response to such events. 
Through its fleet of 13 major earth-observing missions, NASA is 
able to rapidly generate and broadly disseminate imagery and 
data products on the locations, heights and densities of ash 
plumes and related hazards. These data products fuel a range of 
research investigations which enhance our knowledge of solid 
earth processes, atmospheric transporting composition and the 
impacts that volcanic eruption have on the earth system. NASA 
is also able to, and did, provide critical data streams from 
these research satellites to the National Oceanic and 
Atmospheric Administration to support that agency's operational 
prediction of ash plumes.
    Although NASA does not have operational responsibility for 
observation and analysis of volcanic gas and aerosol emissions, 
its fleet of research spacecraft provides data that are 
directly applicable to the societal hazards presented by these 
phenomena. NASA has been using its research satellites to study 
volcanic eruptions, especially their atmospheric impact, for 
more than 3 decades.
    Several of the research satellite missions that NASA is 
currently developing will be able to provide new and advanced 
insights into volcanic ash cloud properties. Missions that will 
be able to study the presence of aerosols in the atmosphere 
include Glory, scheduled for launch later this year, NPP, 
scheduled for launch in 2011, and tier 2 missions from the 
decadal survey, GEO-CAPE and ACE. NPP will help to track 
volcanic ash clouds using sulfur dioxide observations. Two 
other decadal survey missions will also support this effort. 
The DESDynI mission will improve the determination of the 
likelihood of volcanic eruptions and document posteruption 
changes while the HyspIRI mission will be able to detect 
volcanic eruptions and determine the ash content of volcanic 
plumes.
    In addition to providing measurements and information to 
aid decision makers in responding to the volcanic events and 
its aftermath, these data from NASA's research satellites are 
being utilized in several ongoing NASA-sponsored scientific 
studies of solid earth processes, atmospheric composition and 
air quality, earth's radiation balance and aviation forecasting 
improvement methodologies within both NASA's Earth Science 
Division's Research and Analysis program and its Applied 
Sciences program. For example, over the past several years the 
project competitively funded through the Applied Sciences 
program demonstrated reliable and accurate detection of 
volcanic ash clouds using observations of sulfur dioxide from 
the ozone monitoring instrument on board NASA's Aura satellite.
    Since volcanic eruptions are essentially the only variable 
sources of SO<INF>2</INF> large enough to be observed by 
satellites, false alarms are nonexistent. Satellite 
observations of sulfur dioxide thus assist operational agencies 
in identifying and locating volcanic ash clouds, in particular 
during the first few days after an eruption.
    NASA, in collaboration with NOAA, provides near real-time 
information on volcanic sulfur dioxide and ash aerosols from 
the OMI instrument. NOAA provides this information to its U.S.-
based volcanic ash advisory centers. The international network 
of these centers is charged with gathering information on the 
presence and motion of volcanic clouds and assessing any 
hazards to aviation. In April, NASA products were provided for 
the first time to the European volcanic ash advisory centers to 
assist in their decision making.
    From a research perspective, NASA-developed global models 
can be used to simulate the emission of volcanic ash and sulfur 
dioxide into the atmosphere and to track its subsequent 
transport and dispersion on regional and global scales. NASA 
also routinely uses air particle trajectory modeling to 
estimate the source regions of features seen in satellite data 
that are suspected to have a volcanic origin. However, such 
model runs are generally undertaken after an eruption has taken 
place in order to advance scientific understanding, leading to 
improvements in the accuracy of the models.
    At present, our understanding of solid earth processes and 
our ability to obtain adequate global measurements to initiate 
the models are both insufficient for generating routine, 
accurate predictions of volcanic ash plume range and 
composition. However, NASA efforts to improve observations will 
yield new and more refined data on various aspects of the plume 
including area, height, aerosol properties and associated 
sulfur dioxide which can be used to help critically evaluate 
current models and drive the improvement of such models in the 
future.
    Thank you again for the opportunity to testify before you 
today. I look forward to answering your questions.
    [The prepared statement of Mr. Kaye follows:]
                    Prepared Statement of Jack Kaye
    Good morning Chairwoman Giffords, Ranking Member Olson and Members 
of the Subcommittee. I appreciate the opportunity to appear before you 
today to discuss the National Aeronautics and Space Administration's 
(NASA's) Earth Science-related activities to monitor and study volcanic 
ash clouds. The recent eruption of Eyjafjallajokull highlights the 
different types of contributions that NASA Earth Science makes to the 
study of, and response to, such events. Through its fleet of satellite 
assets, NASA is able to rapidly generate and broadly disseminate 
imagery and data products on the location, heights, and densities of 
ash plumes and related hazards. These data products fuel a range of 
research investigations which enhance our knowledge of solid Earth 
processes, atmospheric transport and composition, and the impacts that 
volcanic eruptions have on the Earth system. NASA is also able to--and 
did--provide critical data streams from these research satellites to 
the National Oceanic and Atmospheric Administration (NOAA) to support 
that agency's operational prediction of dust plumes. In response to the 
intense public interest in this event, NASA has conducted focused 
public outreach activities regarding our research capabilities and 
science activities in the areas of volcano research and hazard 
prediction. Although NASA does not have operational responsibility for 
observation and analysis of volcanic gas and aerosol emissions, its 
fleet of research spacecraft provides data that are directly applicable 
to the societal hazards presented by these phenomena.
    NASA has been using research satellites to study volcanic 
eruptions, especially their atmospheric impact, for more than three 
decades. NASA pioneered such activities using the Total Ozone Mapping 
Spectrometer (TOMS) instrument flying aboard the Nimbus 7 satellite 
launched in 1978. The record for the Nimbus 7 TOMS and the flight of 
successor TOMS instruments on other missions covers the years 1978-2003 
and includes observations of a total of 274 eruptive events from 70 
different volcanoes (see http://toms.umbc.edu/). Starting in 2004 and 
extending to the present, key successor measurements are provided by 
the Ozone Monitoring Instrument (OMI) flying aboard NASA's Aura 
spacecraft.
    Information on atmospheric composition in the TOMS/OMI data is 
based on measurements of ultraviolet radiation; however, this is only 
one of the ways in which NASA uses its satellites to study the 
atmospheric impact of volcanic eruptions. NASA's currently operating 
fleet of 13 satellite missions is being used to generate several data 
products which provide complementary information on volcanic effects on 
the atmosphere through measurements obtained from different wavelength 
regions, viewing geometries, and employing a variety of remote sensing 
technologies. These products provide information not only on the 
location of ash clouds and sulfur dioxide (SO<INF>2</INF>) injected 
into the atmosphere, but on the height, size, and composition of the 
particles. Such data are critically important for the initialization 
and evaluation of the models that are used to predict the evolution of 
the gas and ash plumes associated with volcanic eruptions, as well as 
for direct guidance as to the location and severity of ash plumes.

Monitoring Eyjafjallajokull Using NASA Assets

    NASA's satellites have observed the ash plume since the eruption of 
Eyjafjallajokull, providing essential data on the size and composition 
of the plume as it expanded and moved over Europe. For example, data 
acquired by the Multi-angle Imaging SpectroRadiometer (MISR), one of 
the instruments on NASA's TERRA spacecraft (launched in 1999) provided 
information on both the horizontal and vertical extents of the plume. 
The Moderate Resolution Imaging Spectroradiometer (MODIS) instruments 
on the Terra and Aqua (launched in 2002) satellites captured images of 
the eruption; the multiple wavelength measurements provided by the 
MODIS instruments aid researchers in separating ash plumes from clouds 
in the imagery. Information on the height of the ash plume was also 
provided by MODIS. NASA was able to validate the Terra and Aqua ash 
plume height observations using data from the Cloud-Aerosol Lidar and 
Infrared Pathfinder Satellite Observations (CALIPSO) satellite, 
launched in 2006. CALIPSO's active remote sensing (lidar) approach not 
only detects aerosols (small particles such as dust, smoke and 
pollution) and thin clouds that are often invisible to radar, but 
determines their heights and vertical concentration profiles. The 
Advanced Spaceborne Thermal Emission and Reflection Radiometer (ASTER) 
instrument, also onboard Terra, is able to detect and track lava flows, 
as well as ash and gas plumes, with high spatial resolution. For the 
Eyjafjallajokull eruption, additional thermal and visible images of the 
plume were captured using the Atmospheric Infrared Sounder (AIRS) 
instrument on Aqua and the Hyperion instrument on Earth Observing-1 
(EO-I), launched in 2000. The data and images are archived and 
available from the NASA Earth Observing System Distributed Active 
Archive Center. Select imagery can be accessed at: http://
earthobservatory.nasa.gov/NaturalHazards/event.php?id=43253.
    In addition to providing measurements and information to aid 
decision-makers in responding to the volcanic event and its aftermath, 
these data from NASA's research satellites are being utilized in 
several ongoing NASA-sponsored scientific studies of solid Earth 
processes, atmospheric composition and air quality, Earth's radiation 
balance, and aviation forecasting improvement methodologies within 
NASA's Earth Science Division's Research and Analysis (R&A) and Applied 
Sciences programs.
    For example, over the past several years a project competitively 
funded through NASA's Applied Sciences Program demonstrated reliable 
and accurate detection of volcanic ash clouds using observations of 
sulfur dioxide (SO<INF>2</INF>) from the Ozone Monitoring Instrument 
(OMI) onboard the NASA Aura satellite. SO<INF>2</INF> is a reliable 
marker for fresh ash clouds from explosive magmatic eruptions as it 
provides a clear discrimination between volcanic plume and ordinary 
clouds. Since volcanic eruptions are essentially the only large sources 
of stratospheric SO<INF>2</INF>, false alarms are non-existent. 
Satellite observations of SO<INF>2</INF> thus assist operational 
agencies to identify and locate volcanic ash clouds, in particular 
during the first few days after an eruption. In general the ash in a 
volcanic plume will drop due to gravity effects faster than the 
SO<INF>2</INF>, so that some distance away from the volcano the ash and 
SO<INF>2</INF> clouds may be separated. Details of how this Applied 
Sciences work is now being used in an operational regime are presented 
in the next section.

Collaboration with U.S. and International Organization to Monitor 
                    Volcanic Ash Plumes

    NASA works with other agencies to ensure that data from NASA's 
research satellites can be used to meet operational needs. For example, 
NASA, in collaboration with NOAA, provides information on volcanic 
sulfur dioxide (SO2) and ash aerosols from OMI aboard the Aura 
satellite every three hours after the data is acquired. This 
information is used to supplement data from NOAA's Geostationary 
Operational Environmental Satellites (GOES) and Polar Operational 
Environmental Satellite (POES) fleets. NOAA distributes these data on-
line to its Volcanic Ash Advisory Centers (VAACs) at: http://
satepsanone.nesdis.noaa.gov/pub/OMI/OMISO2/index.html. Nine VAACs were 
founded in 1995 as a part of an international system set up by the 
International Civil Aviation Organization (ICAO) called the 
International Airways Volcano Watch (IAVW). The VAACs are charged with 
gathering information on the presence and motion of volcanic clouds and 
assessing any hazards to aviation. They issue advisories and alerts to 
airline and air traffic control organizations on the possible danger of 
volcanic clouds. VAACs assist the aviation community to utilize 
satellite data, pilot reports, and other sources of information to 
detect and track ash clouds, and to use trajectory and dispersion 
models to forecast the motion of ash plumes.
    At the time of the latest eruption, SO<INF>2</INF> information was 
being made routinely available for sectors covering the Americas and 
the Pacific, through the Anchorage and Washington Volcanic Ash Advisory 
Centers (VAACs). However, beginning on April 19, 2010, NASA began to 
provide this information for sectors covering Iceland and Northwest 
Europe to the VAAC in London. This information is now being utilized in 
the formulation and validation of Volcanic Ash Advisories over Europe.
    As an additional response to the eruption, the Support to Aviation 
Control Service (SACS), a support center for the European VAACs, is now 
directly linking to the Aura/OMI near-real time products (http://
sacs.aeronomie.be/). The SACS SO<INF>2</INF> data and alert service 
delivers near-real time data derived from satellite measurements 
regarding SO<INF>2</INF> emissions possibly related to volcanic 
eruptions, and in case of exceptional SO<INF>2</INF> concentrations 
(``SO<INF>2</INF> events'') can use the data to send out alerts by 
email to interested parties. When volcanic activity poses a hazard to 
aviation, the VAACs issue alerts to air traffic control and airline 
organizations to help them decide whether to reroute planes away from 
volcanic clouds. In the case of the Eyjafjallajokull eruption, the 
satellite measurements and products were also directly shared with 
Schiphol Airport (Amsterdam) and the Netherlands Ministry of Traffic 
Affairs through the OMI Principal Investigator at the Royal Netherlands 
Meteorological Institute.

Future NASA Assets With Volcanic Ash Monitoring Applications

    Several of the research satellite missions that NASA is currently 
developing will be able to provide new and advanced insights into 
volcanic ash cloud properties.
    Later this year, NASA will launch the Glory mission to study the 
Earth's energy budget and the presence of aerosols in the atmosphere. 
Glory will be able to distinguish various species of aerosols, 
information which will advance the study of volcanic effluent 
composition.
    In 2011, NASA is scheduled to launch the NPOESS Preparatory Project 
(NPP). The Visible/Infrared Imager Radiometer Suite (VIIRS) instrument 
on NPP is designed as an operational follow-on to the research-grade 
MODIS instrument on Terra and Aqua. The Ozone Mapping and Profiler 
Suite (OMPS) on NPP will provide data that to continue support for the 
detection of volcanic ash clouds using SO<INF>2</INF> observations, 
currently performed by Aura/OMI. Operational availability of VIIRS data 
will continue on the Joint Polar Satellite System, scheduled for launch 
in 2015.
    The 2007 National Research Council (NRC) Decadal Survey recommended 
several missions that promise to advance future volcano research. The 
Deformation, Ecosystem Structure and Dynamics of Ice (DESDynI) mission, 
a Tier 1 mission, has as a key mission objective to improve the 
determination of the likelihood of earthquakes, volcanic eruptions, and 
landslides. This will enhance our ability to anticipate future 
eruptions, whereas the response to the Eyjafjallajokull eruption was 
reactive. Likewise, the Tier 2 Hyperspectral Infrared Imager (HyspIRl) 
mission would include measurements over a range of optical and infrared 
wavelengths useful for detecting volcanic eruptions, determining the 
ash content of volcanic plumes, and identifying the occurrence and 
effects of associated landslides. The Geostationary Coastal and Air 
Pollution Events (GEO-CAPE) mission, also a Tier 2 mission, would 
measure aerosols and allow the tracking of pollutants being transported 
in the atmosphere. Similarly, data from the Tier 2 Aerosol-Cloud-
Ecosystems (ACE) mission would be able to distinguish volcanic aerosols 
from other aerosol types and clouds, and will track the dispersion of 
volcanic plumes in three dimensions on a global basis.

Improvements to Volcanic Ash Plume Modeling

    NASA-developed global models can be used to simulate the emission 
of volcanic ash and SO<INF>2</INF> into the atmosphere, and to track 
its subsequent transport and dispersion on regional and global scales. 
NASA also routinely uses air parcel trajectory modeling to estimate the 
source regions of features seen in satellite data that are suspected to 
have a volcanic origin. However, such model runs are generally 
undertaken after an eruption has taken place in order to advance 
scientific understanding, leading to improvements in the accuracy of 
the models. At present, our understanding of solid Earth processes and 
our ability to obtain adequate global measurements to initiate the 
models are both insufficient for generating routine, accurate 
predictions.
    The mandate of NASA's Earth Science program is to increase 
scientific understanding of Earth processes as an integrated system. 
NASA thus does not produce routine, operational predictions of volcanic 
ash and SO<INF>2</INF> cloud transports and evolution. Because there is 
a lack of immediately available information on the quantity and 
characteristics of emissions from any particular volcano, any forecasts 
of ash and SO<INF>2</INF> emission and propagation are relatively 
crude. With the present ``state of the art,'' estimates of SO<INF>2</INF> 
cloud transport and characteristics are based heavily on estimates of 
emitted SO<INF>2</INF>, and while model results usually match well with 
observed cloud dispersion and distribution, they do not produce 
reliable estimates of SO<INF>2</INF> concentrations. At this time, air 
parcel trajectory models, in which columns of air parcels are 
initialized over erupting volcanoes at the time of the eruption and 
then tracked as the parcels are transported away from the volcano 
location by forecast wind fields, estimate the evolution of the ash 
cloud but do not consider important loss processes such as fallout, 
rainout, and washout, precluding a reliable forecast of ash cloud mass 
loading.
    The Global Modeling and Assimilation Office at NASA Goddard Space 
Flight Center generates weather forecasts for the NASA research 
community, using the Goddard Earth Observing System--Version 5 (GEOS-5) 
Data Assimilation System. This system includes an aerosol model, 
Goddard Chemistry Aerosol Radiation and Transport (GOCART), as part of 
its routine twice-daily weather forecast. GOCART must be forced with 
appropriate emissions and produces 3-dimensional distributions of 
aerosols during the forecast period. At present, the GEOS-5 system 
includes an inventory of continuously outgassing volcanoes, but 
episodic volcanic eruptions are not included.
    Routine forecasts of the propagation of volcanic ash and SO<INF>2</INF> 
clouds following an eruption using the GEOS-5 system would be possible 
given some modifications. More detailed observations of the 
constituents of the ejecta and their vertical distribution are 
required. Observations need to include information about the timing and 
duration of the eruptions, the injection altitudes as a function of 
time, and the particular characteristics of the emissions (amount, 
size, type). The information would need to be made available or 
converted to machine-readable data files with time of eruption, 
location, plume height and strength of the emission in terms of 
SO<INF>2</INF> and ash. The GOCART aerosol model would need to be 
modified explicitly to include a volcanic ash constituent. A third area 
of improvement is the development of statistical models of uncertainty 
useful to decision makers. For this, an ensemble forecasting technique 
would be necessary, spanning likely scenarios of ejecta and their 
vertical distribution as well as weather forecast uncertainty.
    The London VAAC runs a version of the Numerical Atmospheric-
dispersion Modeling Environment (NAME) model (http://
www.metoffice.gov.uk/aviation/vaac/eruption<INF>-</INF>detection.html). 
The London VAAC has used the OMI aerosol index (AI) to validate their 
dispersion model output, although their main source of satellite data 
has been the Spinning Enhanced Visible and Infra-Red Imager (SEVIRI) 
infrared instrument on the European geostationary Meteosat Second 
Generation (MSG) satellite, which has better temporal resolution than 
the polar-orbiting OMI. However, their automatic system based on SEVIRI 
detects only about 2/3 of the eruptions. Using near real time 
ultraviolet data, such as OMI Aerosol Index and SO<INF>2</INF> (as an 
ash proxy) in addition to thermal infrared data could improve early 
(thick) volcanic plume detection, not visible in the infrared.
    NASA recently began providing OMI near real time SO<INF>2</INF> and 
AI data to Operations Department of the European Centre for Medium 
Range Weather Forecasts (ECMWF) for evaluation in assimilation tests. 
The goal is to create an advanced operational data assimilation system 
that will: (1) reasonably model a volcanic plume (given the 
uncertainties in injection height, and composition of the plume); (2) 
assimilate available satellite near-real-time data to constrain the 
model forecast; and (3) provide forecasts for the VAACs.
    It is important to note that the North American-Asia air traffic 
routes overfly the volcanic arcs of the North Pacific from Tokyo, Japan 
to Anchorage, Alaska. These are among the most violent and active 
volcanoes on Earth. The Washington and Anchorage VAACs, operated by 
NOAA, have a stellar record of tracking, monitoring and warning of 
volcanic ash dispersion. These VAACs run NOAA's HYbrid Single-Particle 
Lagrangian Integrated Trajectory (HYSPLIT) model. They utilize 
operational NOAA GOES and POES satellite data, NASA research 
observations, as well as data leveraged from European, Japanese, 
Indian, and other environmental satellites. The Washington and 
Anchorage VAACs' areas of responsibility extend from South America 
through the Caribbean and cover the continental United States, Alaska, 
and most of the Pacific.

Airborne Assets With Volcano-Monitoring Capabilities

    Volcano remote sensing researchers have a strong need for in situ 
sampling of eruption plumes and drifting ash clouds to improve, 
calibrate and validate ash dispersal models. Airborne assets are 
uniquely qualified to measure the gas and ash content of volcanic 
plumes at altitude. However, sampling a volcanic plume is also a 
hazardous procedure given the dangers that volcanic-ash contamination 
poses to aircraft engines.
    The United States maintains both research and operational airborne 
assets that could be used to monitor future eruptions. However, NASA's 
research aircraft and unmanned aerial vehicles are typically engaged in 
coordinated field campaigns investigating other science research 
questions, but could be diverted to a hotspot on an emergency basis. 
Such a decision would constitute an interruption to the baseline 
mission profile and would require at least a one week lead time in 
order to position the aircraft, instruments, and crew.
    One such asset is NASA's ER-2 aircraft, which could be instrumented 
with the Cloud Physics Lidar (CPL) and Airborne Visible/Infrared 
Imaging Spectrometer (AVIRIS) in order to study atmospheric particles. 
In the future, NASA's new high-altitude, long-endurance, heavy-lift 
Global Hawk unmanned aerial system might also be utilized for volcanic 
plume monitoring. The Global Hawk is still in its development phase, so 
rapid response use will be limited for the next few years as NASA gains 
operational experience with the Global Hawk and integrates new 
instruments onto the platform.

Conclusion

    As the Eyjafjallajokull eruption has shown, volcanic eruptions have 
a significant impact on the Earth's atmosphere and the planes that 
travel through that airspace. Although NASA does not have an 
operational requirement to monitor and predict volcanic ash plumes, 
existing and planned NASA assets provide essential data on volcanic 
emissions that can be used by operational agencies around the world to 
determine if there are hazards to aircraft. NASA's satellites and 
associated research programs have added significantly to our ability to 
observe not just the position of volcanic ash plumes, but to understand 
their composition, height, and properties. Through the NASA Applied 
Sciences Program, we can facilitate the use of the data collected by 
NASA's research satellites in operational regimes. NASA researchers are 
developing and improving models that can be used to predict how 
volcanic ash plumes will propagate. While there are still areas for 
improvement, NASA's Earth Science Division supports this work through 
new instruments and satellites and continued work in its Applied 
Sciences and Research Programs.

                        Biography for Jack Kaye
    Jack Kaye currently serves as Associate Director for Research of 
the Earth Science Division (ESD) within NASA's Science Mission 
Directorate (SMD). He has been a member of the Senior Executive Service 
since August, 1999, managing NASA's Earth Science Research Program. 
Earlier positions in his more than 26 year career at NASA include being 
a Space Scientist at the Goddard Space Flight Center and Manager of the 
Atmospheric Chemistry Modeling and Analysis Program at NASA HQ. In 
addition, he has held temporary acting positions as Deputy Director of 
ESD and Deputy Chief Scientist for Earth Science within SMD. His 
academic training is in chemistry (B.S. Adelphi University, 1976; 
Ph.D., California Institute of Technology, 1982). He also held a post-
doctoral research associateship at the U.S. Naval Research Laboratory. 
As Associate Director for Research, Dr. Kaye is responsible for the 
research and data analysis programs for Earth System Science, covering 
the broad spectrum of scientific disciplines that constitute it.
    He represents NASA in many interagency and international activities 
and has been an active participant in the U.S. Global Change Research 
Program (USGCRP) in which he has served for several years as NASA 
principal and Vice Chair of the Subcommittee on Global Change Research 
(since Jan. 20, 2009 he has served as the Acting Chair for these 
activities). He also serves as NASA's representative to the Senior 
Users' Advisory Group for the National Polar Orbiting Operational 
Environmental Satellite System and to the Joint Subcommittee on Ocean 
Science and Technology. He is a member of the Steering Committee for 
the Global Climate Observing System and is an ex officio member of the 
National Research Council's Roundtable on Science and Technology for 
Sustainability. He has received numerous NASA awards (most recently, 
the Outstanding Leadership Medal in 2009), as well as been recognized 
as a Meritorious Executive in the Senior Executive Service in 2004. He 
was elected to serve as co-secretary of the Atmospheric Sciences 
Section of the American Geophysical Union (AGU) for 1998-2000 and 
earlier served on the AGU Publications Committee. The AGU has 
recognized him on two occasions with a Citation for Excellence in 
Refereeing. He has published more than 50 refereed papers, contributed 
to numerous reports, books, and encyclopedias, and edited the book 
Isotope Effects in Gas-Phase Chemistry for the American Chemical 
Society. In addition, he has attended the Leadership for Democratic 
Society program at the Federal Executive Institute and the Harvard 
Senior Managers in Government Program a the John F. Kennedy School of 
Government at Harvard University.

    Chairwoman Giffords. Thank you, Dr. Kaye. We appreciate 
your testimony. The volcano who normally goes unnamed, I 
appreciate your courage in attempting to pronounce the name 
correctly. I appreciate that. Welcome.
    Ms. Cox, please.

 STATEMENT OF VICTORIA COX, SENIOR VICE PRESIDENT, NEXTGEN AND 
OPERATIONS PLANNING, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
                         ADMINISTRATION

    Ms. Cox. Thank you, Chairwoman Giffords, Ranking Member 
Olson, members of the Subcommittee. Thank you for inviting me 
to testify today on mitigating the impact of volcanic ash 
clouds on aviation.
    The FAA has dealt with the issue of volcanic ash clouds 
before, both from a research and an operational perspective, 
and we are happy to share this information with the 
Subcommittee.
    Volcanic eruptions are not unusual. In fact, there is 
almost always an eruption somewhere in the world that may pose 
a hazard to international air navigation. What is rare are 
accidents and incidents resulting from encounters with volcanic 
ash. FAA's voluntary reporting databases show only five 
encounters and 20 complications due to volcanic ash since 2007. 
When compared to the thousands of aviation operations taking 
place in the national airspace system every day, this is indeed 
a small number.
    The FAA's primary method of dealing with volcanic ash 
events is operator avoidance. Since the geographical location 
of areas that may be affected by volcanic ash is weather 
dependent, our model of managing air traffic when confronted 
with volcanic ash is to treat it much like a major weather 
event. That is, we gather the information from the reporting 
agencies and disseminate that information to the operators of 
aircraft. In turn, the operator makes the decision of go or no 
go. If the operator chooses to fly, then our air traffic 
controllers will direct the operator around volcanic ash to the 
best of our abilities.
    Our past participation in volcanic ash research reflects 
this. Because the FAA is essentially a consumer of weather 
services that can help tell us where the volcanic ash will 
disperse, we have worked with the weather reporting agencies to 
develop weather products specifically for aviation use.
    The European response to last month's volcanic eruption in 
Iceland was generally to close the airspace where volcanic ash 
could pose a threat to aviation safety. This may have been due 
to the constrained airspace over Europe that limited the 
possibility of reroutes as well as the need to coordinate the 
actions of the multiple civil aviation authorities in the 
various countries of the European Commission.
    After the shutdown of airspace, European regulators were 
faced with the challenge of reopening their airspace, and the 
FAA was able to lend its expertise to our counterparts in 
Europe. FAA air traffic personnel also participated in daily 
telephone conferences with the United Kingdom's Civil Aviation 
Authority and the interdisciplinary group that they assembled. 
While we primarily offered information on our operator 
avoidance practices, we also helped to brainstorm operational 
solutions for reopening European airspace such as developing a 
collaborative volcanic ash forecasting process and developing 
pathfinder test flight traffic patterns between cities with low 
ash impact.
    I know that this Committee is interested in how the Next 
Generation Air Transportation System, NextGen, may affect our 
current model of operator avoidance when confronted with 
volcanic ash. Because the issue is really based upon receiving 
the best information, NextGen will enable an improved 
information-sharing process. NextGen focuses on how to best put 
information in a format that can be used by pilots, controllers 
and dispatchers, and integrated into decision support tools.
    Volcanic ash information is treated like significant 
weather information. Under NextGen, the NextGen Network Enabled 
Weather product enables the publication of the same weather 
information to all airspace users. The role of NOAA, the 
National Oceanic and Atmospheric Administration, is to provide 
quality data to all its users including data that meets the 
FAA's air traffic control requirements. The FAA integrates the 
information provided by NOAA into tools expressly for air 
traffic management. NextGen will help improve the quality and 
delivery of information to the FAA and aviation users, enabling 
all of us to make better informed operational decisions when 
confronted with adverse conditions such as volcanic ash.
    Madam Chairwoman, Ranking Member Olson, members of the 
Subcommittee, this concludes my prepared remarks. Thank you 
again for inviting me here today to discuss the impact of 
volcanic ash on aviation operations. I would be happy to answer 
any questions you may have.
    [The prepared statement of Ms. Cox follows:]
                   Prepared Statement of Victoria Cox
    Chairwoman Giffords, Ranking Member Olson, Members of the 
Subcommittee: Thank you for inviting me to testify before you today on 
mitigating the impact of volcanic ash clouds on aviation. The Federal 
Aviation Administration (FAA) has dealt with the issue of volcanic ash 
clouds before, both from a research and an operational perspective, and 
we are happy to share this information with this Subcommittee.

Effects of Volcanic Ash on Aircraft

    Volcanic ash is extremely damaging to aircraft. Should an aircraft 
encounter volcanic ash during flight, it could ingest the ash into the 
engines. If the volcanic ash passes through the turbine engines of an 
aircraft, the burner section can melt the ash, which then can deposit 
on the turbine's nozzles as a hard glaze. This can negatively affect 
the engine's operation and can result in a loss of power or total 
shutdown of the engine. When an engine loses power or shuts down due to 
turbine nozzle glazing, it will cool down rapidly. This can result in 
the fracturing of the volcanic ash glaze. Once the glazing breaks up 
and falls away, the engine may be able to resume normal operation.
    There are additional negative effects of volcanic ash on an 
aircraft turbine engine. These may include erosion of compressor blades 
and rotor-path components as well as turbine cooling passages, 
contamination of the oil system and bleed air system, and plugging of 
the engine's inlet pitot static probes. These effects can cause severe 
and costly damage to an aircraft and its components.

FAA Volcanic Ash Response

    While the severe impact of a major volcanic event such as we saw in 
Europe last month is extremely unusual, volcanic eruptions are not 
unusual. There is almost always an eruption somewhere in the world that 
may pose a concern to international air navigation. In certain parts of 
the United States, such as Alaska, volcanic eruptions are enough of a 
possibility that the FAA has developed an operational response.
    FAA Orders 7900.5B and 7110.65T and JO 7930.2M Notice to Airmen 
(NOTAM) provide operational information regarding volcanic ash. The 
FAA's primary method of dealing with volcanic ash events is operator 
avoidance. Since the geographical location of areas that may be 
affected by volcanic ash is weather-dependent, our model of managing 
air traffic when confronted with volcanic ash is to treat it much like 
a major weather event. That is, we gather the information from the 
reporting agencies and disseminate that information to the operators of 
aircraft. In turn, the operator makes the decision to fly or not. If 
the operator chooses to fly, then our air traffic controllers will 
direct the operator around the volcanic ash to the best of our 
abilities.
    As an additional safety precaution, on April 22, 2010, the FAA 
issued a Special Airworthiness Information Bulletin, NE-10-28, 
regarding turbine engine operation in volcanic ash airspace. The FAA 
noted that before flying from the United States to Europe or within 
Europe, aircraft owners and operators should review the following 
recommendations:

        <bullet>  Although the FAA does not recommend engine operation 
        or flight into a visible volcanic ash cloud, we do recommend 
        that aircraft owners and operators obtain definitive 
        information on operational limitations around ash clouds, if 
        any, from each of the European National Authority of the 
        State(s), over which they plan flight operations.

        <bullet>  Follow all aircraft and engine manufacturer's 
        operating and maintenance instructions pertaining to operations 
        in airspace where volcanic ash may be near or present.

        <bullet>  Report any inadvertent encounter with volcanic ash or 
        relevant findings, including abnormal engine behavior, to the 
        respective type certificate holders of the aircraft and 
        engines.

FAA Past Volcanic Ash Research Efforts

    In the 1990s, the International Civil Aviation Organization (ICAO) 
established Volcanic Ash Advisory Centers (VAAC) that disseminate 
information worldwide on atmospheric volcanic ash clouds that may 
endanger aviation. There are nine VAACs located around the world run by 
local weather forecasting organizations. In the United States, the 
National Oceanic and Atmospheric Administration (NOAA) runs VAACs in 
Anchorage, Alaska and Washington, D.C.
    In the past, the FAA has participated with other Federal agencies 
on developing a national plan for dealing with volcanic ash with regard 
to aviation operations. Under the auspices of the Office of the Federal 
Coordinator for Meteorological Services and Supporting Research (OFCM), 
led by NOAA, the FAA helped develop the National Volcanic Ash 
Operations Plan for Aviation.
    Because the FAA is essentially a consumer of weather services, we 
work with the weather-reporting agencies to develop weather products 
specifically for aviation use. Our role in that partnership is to set 
the requirements of what the weather products must provide in order to 
be useful for aviation users, whether they are air traffic controllers 
or pilots. Accordingly, our participation in the OFCM project was 
primarily to set the requirements for the development of volcanic ash 
information products for the FAA and aviation operators to use.
    Aviation operations in volcanic ash situations rely on information 
based on detection and monitoring, alerting, modeling, and post event 
assessments. The U.S. Geological Survey (USGS) provides seismic 
monitoring for early detection and passes the information directly to 
the FAA to provide early warnings when an eruption is imminent or has 
occurred, which is especially important for en route aircraft. NOAA 
uses satellite monitoring as a core element in detection, tracking, and 
monitoring eruptions, and the resultant ash plume. Pilots also make 
observations, and the FAA disseminates pilot reports or PIREPS along 
with NOTAMs and Significant Meteorological Information (SIGMETs). 
SIGMETS originate from NOAA's National Weather Service.
    Much of the capability to predict dispersion of volcanic ash clouds 
is based on mathematical modeling. The HY-SPLIT (HYbrid Single-Particle 
Lagrangian Integrated Trajectory) model is the current model in use by 
NOAA and Australia's Bureau of Meteorology and its Darwin VAAC. Other, 
similar, models are used by other VAACs. Post assessment is carried out 
by the USGS, NOAA and the Smithsonian to determine how we can improve 
the services provided to industry and the FAA's air traffic management.

FAA Assistance in Response to Eyjafjallajokull Eruption

    The European response to last month's volcanic eruption in Iceland 
was generally to close the airspace where volcanic ash could pose a 
threat to aviation safety. This was due in part to the constrained 
airspace over Europe and the need to coordinate the actions of the 
multiple civil aviation authorities of the various countries of the 
European Commission.
    After the shutdown of airspace, European regulators were faced with 
the challenge of reopening their airspace, and the FAA was able to lend 
its expertise to our counterparts in Europe. FAA air traffic personnel 
also participated in a daily telephone conference with the United 
Kingdom's Civil Aviation Authority and the inter-disciplinary group 
they assembled. While we primarily offered information on our operator 
avoidance practices, we also helped to brainstorm operational solutions 
for reopening European airspace such as developing a collaborative 
volcanic ash forecasting process and developing ``pathfinder'' test 
flight traffic patterns between cities with a low ash impact.

NextGen and Volcanic Ash

    I know that this Committee is interested in how the Next Generation 
Air Transportation System (NextGen) may affect our current model of 
operator avoidance when confronted with volcanic ash. Because the issue 
is really based upon receiving the best information, NextGen will 
enable an improved information sharing process. NextGen focuses on how 
to best put information in a format that can be used by pilots, 
controllers, and dispatchers and integrated into decision support 
tools.
    Volcanic ash information is treated like significant weather 
information. Under NextGen, the NextGen Network Enabled Weather (NNEW) 
product will enable the publication of the same weather information to 
all airspace users. NOAA's role will be to provide quality data to all 
its users including data that meets the FAA's air traffic control 
requirements. The FAA will integrate the information provided by NOAA 
into tools expressly for air traffic management. NextGen will help 
improve the quality and delivery of information to the FAA and aviation 
users, enabling all of us to make better informed operational decisions 
when confronted with adverse conditions such as volcanic ash.
    Madame Chairwoman, Ranking Member Olson, Members of the 
Subcommittee, this concludes my prepared remarks. Thank you again for 
inviting me here today to discuss the impact of volcanic ash on 
aviation operations. I would be happy to answer any questions that you 
may have.

                       Biography for Victoria Cox

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As the Air Traffic Organization's Senior Vice President for NextGen 
and Operations Planning, Vicki Cox provides increased focus on the 
transformation of the nation's air traffic control system by providing 
systems engineering, research and technology development, and test and 
evaluation expertise. She is also responsible for the NextGen portfolio 
and its integration and implementation.
    Within the FAA, Cox has served as the Director of the ATO's 
Operations Planning International Office, the Director of Flight 
Services Finance and Planning and the Program Director of the Aviation 
Research Division.
    Prior to joining the FAA, Cox was Director of International 
Technology Programs in the Office of the Director of Defense Research 
and Engineering in the Office of the Secretary of Defense. She has an 
extensive research and development and program management background, 
having supported the Deputy Undersecretary of Defense for Science and 
Technology as the DOD Laboratory Liaison. She also worked as a Program 
Manager for a number of ballistic missile defense technology programs 
for the U.S. Air Force. A physicist, Cox served as Chief of Physics and 
Scientific Director of the European Office of Aerospace Research and 
Development in London. She also worked as a scientist responsible for 
thermal vacuum conditioning and testing of the Hubble Telescope for 
NASA.
    Cox graduated from Converse College and received a Master's degree 
from East Carolina University. She has a certificate in U.S. National 
Security Policy from Georgetown University and is a DOD Level III 
Certified Acquisition Professional in Systems Planning, Research, 
Development and Engineering. She also earned her private pilot's 
license in 1985.

    Chairwoman Giffords. Thank you, Ms. Cox. We are glad you 
are here with us.
    Captain Orlady.

STATEMENT OF CAPTAIN LINDA M. ORLADY, EXECUTIVE AIR SAFETY VICE 
       CHAIR, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL

    Ms. Orlady. Madam Chair, Ranking Member Olson, members of 
the Subcommittee, I am Captain Linda Orlady, Executive Air 
Safety Vice Chair of the Air Line Pilots Association 
International representing the safety interests of more than 
53,000 professional pilots in the United States and Canada. On 
behalf of our members, I thank you for this opportunity to 
testify on volcanic ash and the risks it poses to aviation.
    Fifty-five to 60 volcanic eruptions annually worldwide and 
resulting ash and gases reach altitudes routinely traveled by 
the airlines. As vividly demonstrated during the recent 
Icelandic eruption, ash cloud can drift for days, weeks, 
contaminate large areas of airspace. Flying in volcanic ash and 
gases poses a significant but little understood threat to the 
integrity of aircraft, its engines and to the health of its 
occupants.
    Although no fatal airline accidents have been attributed to 
volcanic ash, damage to aircraft, potential damage to 
passengers and crew have been well documented. Two notable 
involved a British Airways 747 flight over Indonesia in 1982 
and a KLM 747 flying over Alaska in 1989. Both of these 
aircraft lost power to all four engines during an inadvertent 
volcanic ash encounter. In each case, the pilots struggled to 
restart engines, handle other malfunctions and managed to 
safely land badly damaged aircraft. The encounters caused 
extensive damage to the engines, windshields and other aircraft 
systems. Documented volcanic ash encounters have revealed these 
vulnerabilities. Further study is required to fully understand 
our susceptibilities to volcanic ash and gas cloud 
contamination.
    Additionally, volcanic gases pose serious health hazards to 
aircraft crew and passengers including breathing difficulties, 
headaches, itchy eyes. Volcanic gases can produce an acrid odor 
which may mislead a flight crew into thinking they have an 
electrical problem or might mask the presence of an actual 
electrical problem. Volcanic ash cloud gases are not displayed 
on cockpit radar nor on radar at air traffic control. They are 
extremely difficult to detect at night. Pilots must rely on 
information from dispatchers, other pilots to determine the 
location of these hazards. Coordinating and standardizing this 
information is further complicated by the number of different 
entities who supply it.
    The recent Icelandic eruption demonstrated a lack of 
standardization between the various forecasts available to 
flight crews and dispatchers. As operations resumed in Europe, 
we received reports from pilots at different airlines who were 
given conflicting information in their dispatch release 
documents. In some cases, pilots had one depiction showing 
extensive air coverage while others showed nothing at all. 
While we have made progress in predicting where and when an 
eruption may occur, work must be done to improve forecasting 
and standardizing information about where and how an ash cloud 
will spread.
    The recent air travel disruption demonstrated the benefit 
of having data to reliably and objectively define a specific 
hazard area, potentially allowing flights into some regions. 
However, we did not have scientifically reliable data to make 
that determination. Arrays of potential hazards cannot 
currently be defined in terms that flight crews can use for 
dispatching while airborne.
    ALPA is encouraged the Senate version of the FAA 
reauthorization bill supports research on volcanic ash hazards. 
We urge Congress to enact this legislation. Without such 
research to improve the understanding of the hazards and ways 
to mitigate them, ALPA continues to advocate that the only safe 
course of action for flight crews is to avoid any encounter 
with volcanic ash. We need to determine if scientifically 
validated threshold levels developed with stakeholder 
participation can define an acceptable ash encounter. This 
determination must be based on rigorous, structured testing and 
produce reliable, scientifically quantifiable results. It will 
never be acceptable to hope for the best as we see how close we 
can fly to an ash cloud.
    To continue operating in areas where there is a risk of 
flight into volcanic ash, ALPA believes we need several 
improvements. First, onboard systems to detect ash clouds 
concentrated volcanic gases which allow pilots enough time to 
identify potential hazards and sufficient time to provide for 
safe navigation around them. Secondly, more vigorous aircraft 
certification standards. Thirdly, new procedures and training 
programs for flight crews, dispatchers, mechanics and air 
traffic controllers.
    As a rare but positive example, Alaska Airlines has 
developed volcanic ash training scenarios. They provide tools, 
techniques for both avoidance and recovery from inadvertent 
entry into volcanic ash and gas cloud conditions. 
Unfortunately, this type of comprehensive training is not 
universal for airlines operating in the vicinity of potential 
volcanic activity.
    Thank you for the opportunity to testify on this important 
topic.
    [The prepared statement of Captain Orlady follows:]
                   Prepared Statement of Linda Orlady
    Ms. Chairwoman and members of the Subcommittee, I am Captain Linda 
Orlady, Executive Air Safety Vice-Chair of the Air Line Pilots 
Association, International (``ALPA'') which represents the safety 
interest of over 53,000 professional pilots at 38 airlines in the 
United States and Canada. On behalf of our members, I thank you for 
this opportunity to testify before you on the issue of volcanic ash and 
the risk it poses to aviation.
    There are 1,500 known volcanoes around the world, and 600 (40%) of 
them are currently listed as active. Collectively, there are 55 to 60 
volcanic eruptions annually, and the ash and gases propelled from these 
eruptions reach altitudes that are routinely traveled by the airlines. 
Flying in the presence of volcanic ash and gases poses a significant, 
but unfortunately little understood threat to the integrity of an 
aircraft, its engines, and to the health of all occupants onboard. 
Adding to these threats is the disturbing fact that volcanic ash clouds 
and gases are not displayed on either radar installed in the aircraft 
or on radar used by air traffic controllers. Furthermore, volcanic ash 
and gas conditions are extremely difficult to identify at night. When 
trying to avoid drifting ash clouds or gases, pilots must rely on 
forecasts from dispatchers, reports from air traffic controllers, or 
feedback from other pilots flying in the area to determine the location 
of these potential hazards. The coordination and standardization of 
this information is further complicated by the number of different 
entities who supply information to airlines and their crews.
    The recent Icelandic eruption demonstrated quite clearly that there 
is a lack of standardization between the various forecasts available to 
flight crews and dispatchers. As operations resumed in Europe last 
week, we received several reports from crews at different airlines who 
were given conflicting information in their dispatch release documents. 
In some cases, crews had one depiction showing extensive ash coverage 
and yet another which showed nothing at all.
    Although there have been no fatal commercial airline accidents 
attributed to volcanic ash, the occurrence of damage to aircraft and 
potential dangers to the passengers and crew have been well documented. 
The two most notable incidents involved a British Airways 747-200 
flight over Indonesia in 1982 and a KLM 747-400 flying over Alaska in 
1989. Both of these aircraft lost power to all four engines during an 
inadvertent volcanic ash encounter. In the case of the British Airways 
incident, all four engines lost power when the flight, operating in 
darkness, encountered a volcanic ash cloud invisible to them or the 
aircraft's weather radar. The crew declared an emergency as the 
airplane descended to about 12,000 ft where they were beneath the ash 
cloud but near mountainous terrain. They were able to restart three of 
the four engines but lost power to one of the three remaining engines 
when they again encountered ash while attempting to remain clear of the 
mountains! The crew was finally able to safely land the crippled 
airplane with only two of the four engines operating and with badly 
scratched windshields that impaired their visibility. Similarly, in the 
case of the KLM incident, the crew was able to restart the engines and 
safely land a crippled airplane, averting the loss of human life and a 
catastrophic aviation event. In both cases, there was extensive damage 
to the airplane engines, windshields, and environmental control 
systems. Documented volcanic ash encounters such as these have revealed 
the known vulnerabilities in current aircraft systems; however, as 
aircraft are constructed and equipped with newer technologies such as 
sophisticated electronic systems, we will need to study and understand 
those susceptibilities to volcanic ash contamination.
    The flight safety risk associated with operations in the vicinity 
of volcanic ash clouds is not limited to just the vulnerability of the 
aircraft, engines, and the onboard systems. There is also a potential 
health hazard from the volcanic gases such as Sulfur Dioxide 
(SO<INF>2</INF>) or Hydrogen Sulfide (H<INF>2</INF>S). For example, 
SO<INF>2</INF> can cause breathing difficulties if inhaled at 
significantly high concentration levels. H<INF>2</INF>S may cause 
headaches and itchy eyes. Indications that volcanic gases are present 
include an acrid odor similar to electrical smoke, which may mislead 
the crew into thinking they have an electrical problem and cause 
further distractions or, worse yet, mask the presence of an actual 
serious electrical problem. Prolonged exposure to H<INF>2</INF>S may 
dull the sense of smell causing the flight crew to believe erroneously 
that they are clear of the gaseous environment.
    Since the occurrence of the two near catastrophic events cited 
above, there has been an increased awareness in the airline community 
of the potential hazards of ash encounters. The improved availability 
of satellites coupled with technologies to transform satellite data 
into useful information along with improved coordination among 
international volcano monitoring facilities has helped to reduce the 
number of volcanic ash encounters worldwide. To date, ALPA along with 
the aviation industry has advocated for continued improvements in 
forecasting capabilities and dissemination of information to enable 
crews to safely avoid areas where there is a potential for a volcanic 
ash encounter. One outcome of this advocacy has been the creation of 
the Volcanic Ash Advisory Centers (VAAC), which is a network of nine 
facilities located worldwide. Each VAAC monitors the status of the 
active volcanoes within their assigned areas and disseminates 
information as needed to enable aircraft to safely avoid flying in 
hazardous volcanic ash conditions. ALPA continues to advocate for 
improved monitoring and forecasting capabilities but currently 
maintains the position, as is stated in the FAA Aeronautical 
Information Manual, to avoid any encounter with volcanic ash.
    As vividly demonstrated during the recent eruption of the 
Eyjafjallajokull Volcano in Iceland, an ash cloud can drift for several 
days, travel thousands of miles, and envelop large areas of airspace. 
And while we have made progress in predicting where and when an 
eruption may occur, as previously stated, there is still work needed in 
forecasting and standardizing the information on where and how the 
resulting ash cloud will spread. The seismic activities and events 
leading up to the Eyjafjallajokull eruption were well monitored by the 
London-based VAAC, and as a consequence, flight crews had ample 
awareness of the imminent hazard and the possible need to re-route 
their flights accordingly. Unfortunately, the resulting ash cloud was 
so widespread that re-routing flights around European airspace to avoid 
potentially hazardous areas was not a viable option. European 
regulators, to their credit, recognized that in the absence of data 
demonstrating that safe flight was possible, the prudent course of 
action was to cease operations in the interest of safety. The 
disruption in air travel service cost billions of dollars to the 
industry and extreme inconvenience to the traveling public. The 
conservative approach taken by authorities--to put safety ahead of 
economic considerations--ensured that no lives were lost. However, the 
extent of the impact on worldwide operations demonstrated clearly that 
the strategy of circumventing an area of ash and gas is not necessarily 
a practical solution. Just as clearly, the situation demonstrated the 
benefit of having data to make it possible to reliably and objectively 
define a specific hazard area, potentially making it possible for 
flights to operate in some regions. The dilemma is that currently we do 
not have scientifically reliable and valid data which tells us how that 
might be accomplished. The areas of potential hazard cannot currently 
be defined in terms that are useable to flight crews both for dispatch 
and for use while airborne. Furthermore, the nature of potential damage 
to airframes and engines is not well understood. ALPA agrees that 
action is warranted to address future disruptions in service, however, 
as the economic impacts are assessed and mitigation strategies 
considered, the safety risk of flight operations in the vicinity of 
volcanic ash clouds cannot be compromised. ALPA is encouraged that the 
Senate version of the current FAA reauthorization bill contains 
language supporting the importance of research into volcanic ash 
hazards as well as other weather phenomena, and we urge the Congress to 
continue efforts to enact this legislation. Without such research to 
improve understanding of the hazards and ways to mitigate them, ALPA 
continues to advocate that the only safe course of action is for flight 
crews to avoid any encounter with volcanic ash.
    If in the future, flight crews are allowed to fly in areas where 
there is a potential to encounter volcanic ash or gas concentrations, 
then any acceptable threshold established for safe operations within 
this environment must be based upon credible scientific data, analysis, 
and sound verification processes. New technologies will be needed to 
ensure all associated hazards within the allowable pre-established 
threshold are anticipated for and can be detected, measured, and safely 
mitigated by the flight crew prior to any encounter.

Anticipate the hazard: Better forecasting methods and information 
dissemination will be needed to enable crews to plan for and to 
implement, if necessary, safe exit strategies in the event of a 
volcanic ash encounter that exceeds the pre-determined limits of the 
airplane. As noted earlier, the current products available to flight 
crews vary widely in their interpretation of available data. These 
products must be standardized so that flight crews operating in an 
area, dispatchers on the ground, and air traffic controllers have a 
common understanding of where the threats areas may be and what 
mitigations may be possible. In addition, flight crew training programs 
must accommodate scenarios designed to help crews understand when 
volcanic effects are a potential hazard, how to recognize and cope with 
those effects, and how to develop effective exit strategies. This 
challenge is particularly true for carriers whose typical route 
structure involves flight in areas of known volcanic activity. Alaska 
Airlines, for example, has developed extensive classroom and scenario-
based simulator training that provides crews with effective tools and 
techniques that can be used in the event of inadvertent airborne ash 
cloud exposure. In this training, pilots face a full range of hazards, 
both to the aircraft and to its occupants, and develop strategies for 
successfully recovering from such an emergency. More importantly, 
awareness of and simulated exposure to ash and gas clouds underscores 
the need for avoidance of these hazards. This type of comprehensive 
training, however, is not universal for airlines that may operate in 
the vicinity of volcanic activity. Detailed study of the effects of ash 
and gas on aircrews and airplanes must be undertaken and this 
information must be incorporated in training programs for crews 
operating in potential threat areas.

Detect & Measure the hazard: Currently, ATC and aircraft radars do not 
distinguish ash clouds from other weather related clouds. Crews may not 
realize they have entered a hazardous volcanic ash situation until they 
are already in it. By that time damage may have already occurred to the 
airplane engines and/or other flight systems. Forward looking systems 
are needed to detect an ash cloud and gases ahead of the airplane at 
sufficient distances to allow adequate time for the crew to safely 
divert around an unacceptable hazard. The forward looking system will 
also need to measure vital characteristics of the volcanic cloud, such 
as density and hazardous gas levels, to enable the crews to evaluate 
the hazard relative to pre-determined threshold levels and decide if it 
safe to proceed through an area of concern or to divert. Aircraft 
certification requirements will need to be updated to provide for more 
ruggedized aircraft health monitoring systems and management processes. 
Both flight and maintenance crews will need to know and act accordingly 
if an aircraft engine or other vital component has been damaged or has 
deteriorated at an accelerated rate that would compromise the continued 
safety of flight. Finally, we need to understand if any encounter with 
ash might be considered acceptable. This understanding must be based on 
rigorous, structured testing and produce reliable and scientifically 
quantifiable results. It will never be acceptable to simply see how 
close to an ash cloud we can fly and hope for the best.

Mitigate the hazard: Regarding the establishment of an acceptable 
threshold for flight near or into known volcanic ash or gaseous 
conditions, there are important and applicable lessons learned from the 
regulatory and operational experiences that have enabled allowable 
flight into known icing conditions. Extensive wind tunnel research, 
studies, and flight testing has been done over many years to assess and 
certify the safety of flight into icing. Though flight into known icing 
conditions is allowed and can be safely conducted under certain 
conditions and with specific aircraft anti-icing and de-icing equipment 
and appropriately trained crews, icing-related accidents and incidents 
still remain an important flight safety issue in the airline community. 
As we have learned with icing, mitigating the risk of flight into 
acceptable volcanic cloud conditions will not be a quick process but 
evolutionary as we learn more about the nature of the hazards. As 
testing, research, and development mature enough to establish initial 
acceptable threshold levels and to identify the required equipment 
changes, new procedures will also be needed.

    Government and industry must work together to develop consistent 
regulatory and operational guidance and training plans to ensure the 
new technologies and information is properly transitioned to the 
primary users such as airline dispatchers, air traffic controllers, 
mechanics, and pilots.
    In conclusion, we have made good progress over the past several 
years in monitoring worldwide volcanic activity and alerting the 
affected aviation community of an imminent eruption. However once an 
eruption has occurred, there is still work needed to better forecast 
and standardize information so that hazards associated with drifting 
volcanic ash clouds and gases can be safely avoided in flight. ALPA 
currently maintains that flights into volcanic ash environments are to 
be completely avoided. There is a significant amount of research and 
coordination needed to fully understand the hazards, vulnerabilities, 
and mitigation strategies to ensure safety is not compromised before we 
would support the dispatch and operation of aircraft into areas of 
known volcanic ash, even with a pre-determined threshold level 
considered to be safe.
    Thank you again, for the opportunity to testify on this important 
subject.

                       Biography for Linda Orlady
    Captain Linda Orlady presently holds two positions for the Air Line 
Pilots Association, International (ALPA). She was appointed as the 
Executive Air Safety Vice-Chair in January, 2009 and serves as the 
Safety Management System (SMS) Project Director. Captain Orlady is a 
member of the FAA SMS Focus Group and the Joint Planning and 
Development Office (JPDO) Safety Working Group. She was appointed by 
the FAA to serve as one of the tri-chairs for the FAA's SMS ARC 
(aviation rulemaking committee).
    Captain Orlady has been involved in aviation and human factors for 
thirty years as author, researcher, instructor and lecturer. She helped 
organize the first International Symposium on Aviation Psychology in 
1981 and later served as Technical Chair. She has been a NASA-sponsored 
researcher for Yale and Harvard University on a research project 
investigating crew complement, procedures and automation. With her late 
father, Harry Orlady, Linda co-authored a 600-page book, Human Factors 
in Multi-Crew Flight Operations, published by Ashgate Publications in 
1999.
    Captain Orlady is a third-generation pilot. She received her 
initial flight training at the Ohio State University while completing a 
Masters in Business Administration with concentration in organizational 
behavior and human factors. She flew for several corporations and for 
Henson and Comair Airlines in the early '80s. She was hired by United 
Airlines as a line pilot in 1985 and has flown the Airbus A-319, A320, 
Boeing B-737, and B-747-400. Captain Orlady also worked in United's 
Crew Resource Management Department and was the program manager. She 
presently flies domestic and international routes on the Boeing B-757 
and B-767 out of Washington, DC. She also holds a commercial rotorcraft 
rating.
    Captain Orlady is the Chair of the Flight Safety Foundation Icarus 
Committee and serves on the Board of Governors for the Foundation. She 
also serves as a Trustee for the Vaughn College of Aeronautics and 
Technology in New York.
    Captain Orlady resides in Lothian, Maryland with her husband, John 
Cirino, and four dogs.

    Chairwoman Giffords. Thank you, Captain.
    Mr. Dinius.

 STATEMENT OF ROGER DINIUS, FLIGHT SAFETY DIRECTOR, GE AVIATION

    Mr. Dinius. Madam Chair, members of the Subcommittee, I am 
Roger Dinius, Flight Safety Director for GE Aviation. Thank you 
for providing the opportunity to share these observations of 
the impact of volcanic ash on engines.
    In 1989, we supported the NTSB investigation of a KLM 747 
which experienced multi-engine power loss as a result of a 
severe volcanic ash encounter over Alaska. In this event, 
approximately one minute after the aircraft entered the dense 
volcanic ash cloud, power loss occurred. After exiting the 
volcanic ash cloud, the engines started and the aircraft landed 
safely.
    Volcanic ash impacts the engine in three significant ways. 
One is corrosion of the compressor blades plugging cooling 
holes. It also accumulates on hot parts, deposits on hot parts. 
This last failure mode is the least understood and the most 
impactful on engine operation. Ash melts as it passes through 
the combustor and deposits on turbine nozzles, which can lead 
to stalls and subsequent power losses. This is the KLM event. 
In the KLM event, ash accumulation on high-pressure turbines' 
nozzles led to the engine stall and power loss. The rate of 
accumulation from a specific threat is unknown but likely a 
function of local volcanic ash concentrations, ash chemistry, 
engine design and engine power setting. Compressor erosion and 
plugged cooling nozzles or cooling holes are longer-term 
deterioration, leading to failure.
    In the days following the volcanic eruption in Iceland, GE 
issued communications to airlines, the procedures to inspect 
and maintain engines post-exposure to volcanic ash. GE 
participated in a series of international phone calls dealing 
with the volcanic ash crisis. We researched records, relevant 
data of the past. We freely shared this information on the 
safety matter with agencies, airframers and other engine 
companies. The three large engine manufacturers reached 
consensus with the FAA and CAA that a no-fly zone would be 
established based on a model that predicted volcanic ash 
concentration and visible volcanic ash. In addition, a volcanic 
ash advisory area with a lower predicted concentration was 
established. Operations in this advisory area outside the no-
fly zone would be monitored to determine the impact to engine 
operation. We reached this consensus based on industry 
experience and engineering judgment.
    One quick example. A core engine on a 737-sized aircraft on 
hold at 20,000-feet altitude will ingest approximately one pack 
of Sweet and Low per minute. This seems like a low amount but 
this amount can accumulate as debris and cause engine failure, 
leading to premature engine failure. Industry practices have 
been to avoid volcanic ash. Such avoidance is made possible by 
worldwide weather services, air traffic control and proper 
flight planning.
    Volcanic ash is a flight safety hazard and can impact 
multiple engines on a given flight. Ash has caused failures 
within minutes after encounter. GE recommends avoiding flight 
into visible ash. If industry is not satisfied with avoidance 
as a solution, additional research into two areas is 
recommended to reduce risk. The first is volcanic ash 
prediction, validation of the models, and the second is to 
quantify the impact ash damage has on commercial engines 
through controlled experimentation.
    Thank you for the opportunity to discuss this with you.
    [The prepared statement of Mr. Dinius follows:]
                   Prepared Statement of Roger Dinius
    Madame Chair, Members of the Committee, I am Roger Dinius, 
Director, Aviation Safety for GE Aviation. Thank you for providing us 
this opportunity to present our views and observations to the 
Subcommittee today.
    GE aircraft engines and CFM International engines fly approximately 
50 million flight hours per year worldwide. Every two seconds, a GE or 
CFM-powered airplane is taking off somewhere in the world. At any given 
moment, more than 2,200 of these aircraft are in flight, carrying 
between 50 and 300 passengers. That's more than 300,000 people, right 
now, who are depending on our engines.
    In order to appreciate the potential hazard posed by volcanic ash 
on commercial aviation, and in particular on aviation gas turbine 
engines powering these aircraft, one has to have a basic understanding 
of how these engines operate. The modern turbofan engines that power 
today's commercial airliners are complex machines that contain more 
than 10,000 individual parts. In today's commercial aviation 
operations, the engine is expected to remain on the wing for 20,000 
hours, or about five years. Therefore, the engines have to be very 
reliable while being capable of operating in all kinds of environments.
    Each commercial engine is certified to 14 CFR part 33. This 
regulation requires specific design characteristic, design analysis, 
and testing be completed and approved by the FAA prior to being 
certified for installation on a commercial aircraft. There are 
currently ingestion requirements for birds, ice, rain and hail, but no 
requirement for volcanic ash ingestion. Sand ingestion is no longer a 
certification requirement, since effects of sand ingestion are more of 
a longer-term maintenance issue and not a flight safety issue 
typically. Volcanic ash ingestion is not a certification requirement 
for commercial engines. Historically, engines have not been required to 
meet a specific volcanic ash threat as a result of the relatively 
infrequent encounters.
    Before I discuss GE Aviation's experience with volcanic ash 
ingestion, a short lesson on engine technology is needed. A gas turbine 
engine is comprised of five basic sections: the fan, compressor, 
combustor, high-pressure turbine and low-pressure turbines.
    The fan brings in a large amount of air from the outside and 
pressurizes it. This is either exhausted directly to product thrust, 
the force that pushes an airplane through the air, or passes it to the 
compressor. The fan is typically made up of a single row of blades 
(airfoils--wings) to pressurize the air.
    The compressor takes the air from the fan and pressurizes it 
further. This compressed air is passed to the combustor. The compressor 
is typically made up of 9 to 14 rows of blades (airfoils) to pressurize 
the air. Each one of these blade rows contains between 30-76 blades 
(airfoils). These compressor blades are aerodynamically shaped for 
efficient air pressurization. Additionally the compressor provides air 
for cooling hot metal parts in the turbine stages of the engine, 
enabling long reliable life.
    The combustor takes the air, mixes a portion of it with fuel and 
then burns it to increase the temperature of the air stream. Since the 
fire in the combustor is so hot, the remainder of the compressors 
supplied air is typically used to cool the metal liner of the combustor 
and first stage turbine nozzle and blades. Without this cooling the 
combustor liner would crack and subsequently lead to a rupture failure, 
and engine shutdown.
    The high-pressure turbine takes the hot high-pressure air from the 
combustor and takes work out of the air stream to drive the compressor. 
The high-pressure turbine is comprised of two main components: the 
turbine nozzles and turbine blades. The turbine nozzles set the area 
behind the combustor to maintain the pressure and turn the air to 
efficiently interact with the rotating turbine blades. The turbine 
nozzle section is a row of stationary vanes (airfoils). The turbine 
blades are typically one or two rows of airfoils that receive the 
discharged hot high-pressure air from the turbine nozzles and convert 
it to rotational force to turn the compressor. The turbine is like a 
waterwheel in operating concept, or a windmill. The high-pressure 
turbine operates at very high temperatures, in excess of 2500 degrees 
Fahrenheit. At these temperatures the base materials lose their 
strength properties, so in order to survive under these conditions and 
provide long reliable life, the blades and nozzles are cooled with un-
burned compressor discharge air.
    The low-pressure turbine receives the air exhausted from the high-
pressure turbine and takes work out of the air stream to drive the fan. 
The low-pressure turbine is comprised of both nozzles and blades 
similar to the high-pressure turbine, except the low-pressure turbine 
is typically not cooled or cooling is limited to structural frames and 
nozzles.
    For a jet engine to operate properly and produce continuous thrust, 
it is imperative that the air continuously flows from the fan section 
and proceed to exit the low-pressure turbine. When this continuous flow 
of air is disrupted in the compressor, the engine is said to ``stall''. 
To maintain the continuous flow of air it is important that the 
airfoils, both stationary and rotating, maintain their shape.
    With this understanding of the engine, we can now look at how and 
why volcanic ash poses a hazard to aviation. Volcanic ash can hazard an 
aircraft if the encounter is of high enough concentration and long 
enough duration. There have been a number of engine temporary power 
losses due to volcanic ash cloud encounters. GE's first experience with 
volcanic ash came in 1989 when we supported the investigation after a 
KLM 747-400 experienced a multi-engine power loss while encountering 
severe volcanic ash. In this event, approximately a minute after the 
aircraft entered a dense volcanic ash cloud, a multi-engine power loss 
occurred. After exiting the volcanic ash cloud, the engines restarted 
and the aircraft landed safely. The volcanic ash damaged the engines, 
causing power loss as well as a permanent performance loss from the 
engines. It should be noted that while this is an extreme case, there 
are many cases of minor volcanic ash encounters that go unnoticed by 
the crew, but contribute to reduced engine on-wing life.
    Industry wide experience with the volcanic ash threat has been 
acceptable because when aircraft avoid volcanic ash clouds, the 
airborne hazards are mitigated. This is a result of worldwide weather 
services, Air Traffic Control, and proper flight planning. Volcanic ash 
advisories occur across the globe on a weekly basis. Operators respond 
to these advisories by avoiding the troublesome area.
    Volcanic ash damages engines and can lead to engine failure. The 
volcanic ash impacts the engine in at least three significant ways: 
erosion of compressor blades, plugging of cooling circuits, and 
accumulation on turbine nozzles.
    Of these three failure modes, the volcanic ash deposits on turbine 
nozzles is the least understood and most impactful on engine operation 
as a result of high concentrations of volcanic ash. Volcanic ash can 
melt as it passes though the combustor and is then deposited on turbine 
nozzles, leading to a reduction in flow area, making the compressor 
work harder and resulting in subsequent engine stall (loss of airflow 
and thrust). This failure mode was likely the most operationally 
disruptive on the KLM 747/CF6 event for which GE has detailed data. In 
this event, the ash accumulated on the high-pressure turbine nozzles in 
approximately one minute, which led to the engine stall. The rate of 
ash accumulation on turbine nozzles in a specified volcanic ash 
environment (estimated to be 2 grams per cubic meter in this event) is 
unknown and likely a function of volcanic ash density in the 
atmosphere, volcanic ash chemical make-up, engine design, and engine 
power setting.
    The next most impactful failure mode is airfoils erosion. Volcanic 
ash, like sand, erodes compressor blades, changing their shape. This 
change in shape reduces the efficiency of the airfoil and reduces its 
aerodynamic capability to maintain the airflow. Taken to the engines 
limit, erosion will lead to an engine stall (loss of airflow and 
thrust). Depending on the volcanic ash density in the environment and 
particle size of the volcanic ash encountered this can be more severe, 
from an erosion stand point, than a sand storm.
    The last of the most impactful failure modes is the disruption in 
airflow in the hot section cooling circuits. Long life of the turbine 
hardware is predicated on maintaining the temperatures within design 
limits. As volcanic ash passes through an engine it will find its way 
into the cooling circuits and deposit, which results in limiting, or 
loss of, cooling flow. This loss of cooling will lead to premature 
combustor, turbine blade and/or turbine nozzle failure.
    Additionally, volcanic ash contaminates oil systems, air 
conditioning systems, erodes flowpath hardware and piping, and deposits 
ash in the combustor. While these failure modes are real, and impact 
engine operation, they're not typically the most significant failure 
modes from a time to failure standpoint when exposed to significant 
volcanic ash density. These are expected to be longer-term failure 
modes resulting from light to moderate levels of volcanic ash exposure.
    The week following the eruption of the Eyjafjallajokull volcano, GE 
provided support to our customers to minimize disruptions in service, 
and supported U.S. agencies and European agencies to establish safe 
guidelines for the resumption of operations in European airspace while 
volcanic ash may be present.
    On April 14, following the eruption of Eyjafjallajokull volcano, GE 
initiated efforts to ensure airlines had information to continue 
operations with a volcanic ash threat. The following day, we issued an 
update to all operators to inform airlines of procedures to inspect and 
maintain engines post-exposure to volcanic ash. Also on that day, the 
UK Civil Aviation Authority (CAA) suspended flight operation, due to 
volcanic ash in the environment.
    On April 16, we received an invitation from the FAA New England 
Regional Office to participate in an international teleconference to 
deal with the European volcanic ash issue. GE initiated efforts to 
understand past volcanic ash events with engines. On April 17 and 18, 
we supported additional international phone calls hosted by the UK CAA.
    Actual ash concentration predicted based on the UK National Weather 
Service (MET) office model for volcanic ash concentration was discussed 
and the group worked to establish an appropriate level to prevent a 
hazardous environment for civil flights. GE freely shared our 
knowledge, observations and experience on this potential safety matter 
with agencies, airframers and other engine companies (Pratt & Whitney, 
& Rolls-Royce). We researched records to gather relevant data on past 
volcanic ash encounters with engines. The UK CAA was acting on guidance 
within the International Civil Aviation Organization (ICAO) ``Manual on 
Volcanic Ash, Radioactive Material, and Toxic Chemical Clouds'' DOC 
9691, which states in paragraph 3.4.8: ``. . . the recommended 
procedure in the case of volcanic ash is . . . . regardless of ash 
concentration--AVOID AVOID AVOID''.
    The group worked to understand the UK MET office model and its 
validation. The UK MET office initiated flights to support model 
validation. On April 19th, there were further phone calls to establish 
consensus on the concentration level of volcanic ash an engine could 
tolerate without causing a safety hazard.
    On April 20th, engine manufacturers (RR, P&W, & GE) reached 
consensus with FAA NE office that flights in volcanic ash would be 
acceptable up to volcanic ash concentration levels of up to 2milligrams 
per cubic meter and in absence of visible volcanic ash. Additionally 
the London Volcano Area Advisory Center IVAAC) would issue volcanic ash 
advisories for predicted concentration in excess of 0.2 milligrams per 
cubic meter. Operation in volcanic ash concentrations between 0.2 and 2 
milligrams per cubic meter and clear of visible volcanic ash would be 
monitored to determine the long-term impact on engine operation. This 
consensus was based on industry experience and engineering judgment.
    GE continues to support regulating agencies and airlines with 
volcanic ash inquires, and mature sampling plans. In addition, GE 
issued All Operator Wires and Service Bulletins to socialize the 
agreement above and to provide guidance for operators on sampling plans 
to access longer-term engine impact. In summary, government and 
industry working together determined that the Volcanic Ash threat can 
be mitigated as long as aircraft avoid visible volcanic ash.
    Volcanic ash can pose a threat to safe aviation flights. It has 
caused engine failure within minutes of the encounter in severe 
volcanic ash cloud environments. Much work still needs to be done to 
understand the effects on aircraft gas turbine engines. The 
quantitative flight safety risk due to volcanic ash is dependent on a 
number of factors, some known and some unknown. These unknowns make 
establishing a quantitative limit on volcanic ash a challenge. GE 
provided and continues to provide support to our customers and 
regulatory agencies to maintain safe operation in light of the recent 
volcanic ash threat. The current best practice for abating the volcanic 
ash hazard is to avoid visible volcanic ash. GE supports further 
research to better define the volcanic ash threat and to establish 
working limits, that maintain safe environment for flight and provide 
meteorologists a metric to establish a forecast volcanic ash area to 
allow ATC and flight crews a known area to avoid.
    Thank you again for the opportunity to discuss this issue with you.

    Chairwoman Giffords. Thank you, Mr. Dinius, and thank you 
to all of our witnesses today. I honestly don't think we could 
have assembled a more senior expertise and really diverse group 
of witnesses to an issue that is very important. And of course, 
what strikes me is, as Mr. Olson said in his opening comments, 
that really not since 9/11 have we had such a large disruption 
in air traffic. We have yet to have any fatalities or 
catastrophic incidents associated with volcanic ash but the 
possibility is great and our job here on the Subcommittee is to 
make sure that we are doing everything we can so that we have 
the research and the information to keep air travelers safe, to 
keep airlines running and to make sure that we can have the 
information also to explain it to passengers and to the general 
public as well.

                        Characterizing the Risk

    We are going to begin our first round of questions, and the 
Chair will recognize herself for five minutes.
    I would like to begin with Captain Orlady. Speaking of 
expertise, she is a third-generation pilot, which is 
tremendous, and as I said when we had a chance to meet before 
the hearing, those of us who commute here to Washington every 
week feel like we have a very close relationship with all the 
pilots and we have a lot of trust in the FAA and other 
organizations that of course keep us safe as well as obviously 
the general public. But Captain, you indicated in your written 
statement that the dilemma is that currently we do not have 
scientifically reliable and valid data which tells us how we 
might--how that might be accomplished in terms of the need for 
research and development. So I was hoping that you could and 
then the other members as well, if you could talk about the 
research that you feel is needed to better understand when it 
is safe to fly through airspace that has been contaminated with 
volcanic ash and is there a way to characterize the risk of 
flying under such conditions?
    Ms. Orlady. Thank you very much, Madam Chair, and I 
appreciate your business and the confidence you have in the air 
transportation system because we work hard and it is a process 
to keep working with that.
    There is not an acceptable level of contamination right 
now. Part of the dilemma I think is twofold. One, we don't 
get--we do not receive, rather, good real-time data. There is 
data that is collected, and these folks, my fellow panel 
members can talk much more precisely about it than I can, but 
there are models that are interpreted. There are different 
models that are used. Even if they are using the same model, 
there are different interpretations that are used, and in fact, 
my husband made, I think, a good analogy last night when we 
were talking about this as I was driving through some DC. 
traffic and looking at a display. He said well, that is not 
real-time data so just go ahead and plow through even though it 
is red. We can't do that up in the air. You know, if you don't 
like it on the beltway, you pull over and park or something 
else perhaps but you can't do that airborne. We cannot afford 
to take that risk so we don't get good real-time data as well 
we don't have a high level of confidence. It has gotten much 
better but in terms of the forecasting methods, in terms of are 
we all talking on the same terms, with agreement on the same 
terms and understanding as to what they mean.
    So I don't mean to seem a little bit skeptical with that 
but at this point there is no acceptable level of contamination 
that we think we know enough about to accept. I wish we did, 
given how the economic problems that we had with, as my partner 
here suggested with the big E volcano because it was quite 
disastrous.
    Chairwoman Giffords. And in terms of characterizing the 
risk of this, can you put it in layperson's terms of--I mean, 
we have heard a lot of information, but as a pilot, with all of 
us in the cabin, I mean, how do you quantify that?
    Ms. Orlady. This would not be that difficult. So you have 
your power plants, your engines. They potentially stop working. 
You become a glider. Your windshield can be very quickly 
eroded. In fact, one of the procedures I have seen from one of 
our member airlines mentions specifically if the windshields 
are eroded, consider diverting to an airport where an auto land 
can be made. This does not exactly make your day. Then you have 
what sort of things are you breathing, you know, in terms of 
this and how much do we really know about it in terms of the 
itchy eyes, in terms of breathing difficulties. There is 
nothing about this that sounds appealing. If it was just one 
item, one factor, maybe we would do that. Maybe we will have 
engines that will be able to withstand some of this. That would 
power plants, that would be good, but we have so many other 
issues and aircraft systems that are affected that we really do 
not understand. I think of all of the ramifications. We have a 
learning to do. But mostly for passengers and certainly for 
pilots, no interest in kind of going there. There are just too 
many things that kind of go wrong, and heaven forbid not being 
able to see out the windshield to land.
    Chairwoman Giffords. Thank you.
    Would others care to comment?
    Mr. Kaye. I will just comment briefly then. In terms of one 
of the real challenges is both having the observations and the 
models. For NASA as a research organization, the satellites can 
overfly a particular volcano at a regular time based on durable 
mechanics. There are other satellites that NOAA as an 
operational agency and particularly has used geostationary 
satellites that do get enhanced temporal coverage, but you can 
only--for most of the satellites that we have, we can only 
overfly them in a certain time period but we can use models to 
help. We can initialize models and the data can help evaluate 
them and improve them for the future.
    Chairwoman Giffords. Thank you.
    Mr. Olson.

                         The European Response

    Mr. Olson. Thank you, Madam Chairwoman. I don't know if you 
all had an opportunity this morning to see there was an article 
in the Wall Street Journal this morning, and let me read the 
headline: ``E.U. ministers to speed up talks on aviation 
rules,'' and there was just one little paragraph here that I 
thought was pretty appropriate for what we are taking about 
today. ``The 27 ministers also agreed that there is a need to 
urgently come up with limits as to how much ash is dangerous 
for the airplane engines,'' and so sort of taking up on that 
and following up on some of the comments you made, Mrs. Cox, in 
your opening statement, how would you characterize--this is a 
question for all of you but how would you characterize the 
European Civil Aviation Authority's response to the Icelandic 
volcano? I mean, was the breadth and duration of the shutdown a 
sensible approach based on sound science? Was it kind of a 
play-it-safe reaction because of a lack of scientific 
knowledge? And also, just sort of want comments on what was the 
impact of a balkanized air traffic control system here?
    Ms. Cox. So I don't want to second-guess the Europeans' 
decision to close the airspace not having been there with the 
actual data that they were looking at. I will say that 
certainly the geographic layout of Europe probably contributed 
to their decision. In the United States, we largely handle 
volcanic ash by routing around it. Their particular situation 
probably prohibited their ability to do that. So that was a 
contribution. But certainly there is no known level of volcanic 
ash that is known to be safe to fly through.
    And as I mentioned in my testimony, the fact that there 
were 27 civil aviation authorities who had to contribute to the 
decision probably contributed to the difficulty in once the 
decision was made in deciding what to do about resuming flight.
    Mr. Olson. Captain Orlady, any comments?
    Ms. Orlady. I agree with Ms. Cox. I am not sure--Europe has 
some different challenges that I think they handled very, very 
well most of the time but we handle things a little bit 
differently. We have a little bit more airspace here so it is 
difficult, you know, when one is going to the other and you 
want to be safe, but basically I agree with everything Ms. Cox 
has just said.
    Mr. Olson. Any other panel members want to comment on that 
issue? Okay. We will take that as a big no.

                  Coordinating Research Among Agencies

    All right. Dr. Kaye, the next question is for you then. 
This is about coordinating research among the Federal agencies. 
It appears that other operational agencies are heavily reliant 
on NASA-provided data to enable their own capabilities to 
characterize, measure and forecast volcanic ash cloud 
movements. To what degree are research efforts being 
coordinated among Federal agencies to develop future sensor and 
modeling products?
    Mr. Kaye. Well, there is an interagency coordinating effort 
carried out under the auspices of the Office of the Federal 
Coordinator for Meteorological Services and Supporting 
Research, so I think that deals with some of these kinds of 
things on a regular basis. In the longer term, there is any of 
a number of ways in which we will work together to help develop 
plans. Some of the things that we are trying to do at NASA, 
especially as we look towards the future and some of the future 
missions, those that have been identified by NRC and the 
decadal survey is to bring the users into the mix as early as 
possible so, for instance, one thing that we did this past 
February was hosted, we call it essentially an applications 
workshop between our Applied Science program and our Flight 
program so that we could have a way for those who would be 
potential users of the data that we would be able to provide 
with the next generation of satellites talking with us so we 
better understand what their needs are and the relationship 
between what we can provide and what they do need. So those 
kinds of conversations, especially for NASA, bringing people, 
potential users in at an early stage helps us understand and 
potentially tailor things where it makes sense. For instance, 
one of the--the HyspIRI mission, which is a SO<INF>2</INF> 
decadal survey mission, some of the wavelength bands are 
specifically chosen to provide information on volcanic 
SO<INF>2</INF>.
    Mr. Olson. Thank you very much. Just in closing, I would 
like to make a statement. I mean, it is pretty clear to me that 
we need to develop onboard equipment and a thorough 
communication network, so as Captain Orlady said, the pilots on 
board the traffic can get real-time information about any 
volcanic ash activity. I mean, the only thing that is going to 
be 100 percent safe is avoidance, and I was in the Navy, a P-3 
pilot. As a young patrol plane commander, I made a mistake and 
we are coming home after an 8-hour mission about 4:00 in the 
morning, had some get-home-itis and we had a radar on board 
that wasn't weather certified but guys kind of made guesses and 
they said we have got a thunderstorm here in front of us, Mr. 
Olson, it is about 10 miles wide. I am big and bad, I am a new 
patrol plane commander, all-weather aircraft, we will just 
punch it through, guys, rather than spend another 45 minutes 
going around it. We punched it through. We got through fine. 
The lightning bounced off the aircraft. That is very 
uncomfortable. You know you have gotten yourself in a position 
you shouldn't be in, and, you know, I threw the people around 
on the aircraft for a good three, four minutes and that was 
completely unnecessary. And of course, when I got back to the 
ground and had to deal with 11 crew members walking around, 
``Oh, Mr. Olson, my back, it's so sore.''
    The point of it is, is we got to get them the information. 
If I had had the information and seen how dense that cloud was 
when we punched through it, I would have never done it. I would 
have gone around it and we would have been 100 percent safe. 
Same thing with volcanic ash. If we avoid it, if we get the air 
crews the information they need to that aircraft, they will 
make the right decision every time.
    Thank you, Madam Chairwoman.
    Chairwoman Giffords. Thank you, Mr. Olson.
    We are going to hear now from Ms. Kosmas.

                  The Use of Simulations for Training

    Ms. Kosmas. Thank you, and thank you all for being here 
today. I happen to represent the central Florida area which has 
the National Center For Modeling and Simulation, which is in 
Orlando, and that develops the simulator tools that are used to 
increase skills, mostly in my area for the military at this 
current time but of course all of that information leads to 
simulation that helps us in nearly every scientific endeavor 
that we are working on these days.
    Captain Orlady, you had discussed the use of simulators by 
American Airlines in training their crews to provide them with 
advanced training in the event of ash cloud exposure, and so I 
was curious whether you or any of the other members could 
discuss the use of simulators for advanced training for crews 
in this type of situation and whether it can or should be 
incorporated into crew training universally?
    Ms. Orlady. Thank you very much, and just for the record, 
it is Alaska Airlines rather than American that----
    Ms. Kosmas. Oh, I am sorry.
    Ms. Orlady. --that had that, and as you might imagine, 
because they have the chance to--their exposure rate is quite a 
bit higher. I have talked to in fact a captain 2 days ago who 
had just been through some recurrent training, and recurrent 
training at the airlines, as you may know, will have different 
things every year. Wouldn't you know this year they have some 
scenario for volcanic ash and inadvertent entry? Obviously this 
was planned well before Iceland decided to kind of get active 
so the timing is quite curious. It can be very effective in 
terms of putting you through the scenario and the checklists 
that we have and seeing how it works, and I am reminded from 
talking with him and your question, one of the symptoms also 
that I did not mention or potential consequences, all the 
avionics we have in today's aircraft, the radios, navigation 
radios and particularly with the newer generation aircraft, 
they needed to be cooled just like our computers at home. They 
don't get the cooling of the airports if you will, our cooling 
ports are blocked. They do not-desirable things. They blank and 
they just kind of disappear. So that isn't very helpful.
    So it is very good with training scenarios. The high-
fidelity simulators that we have do allow a high degree of 
realism. It is helpful to do it and it is good to go through it 
and I think it certainly sends home the message quite loudly 
that you do not want to be in this air and don't try be a P-3 
trying to get home kind of quickly so you can be done with it. 
It is just, you know, not worth it. So the simulations can be 
very good although the message at least for us right now is, 
you don't want to get in this, it reinforces. Thank you.
    Ms. Kosmas. Thank you. I appreciate that.
    Does anyone wish to comment on that particular question? 
Obviously the desire is not to be there but should the occasion 
come up where someone is, the ability to be prepared and to 
make the right kinds of decisions is helped, I think, by early 
training and simulation training.
    Thank you very much.
    Chairwoman Giffords. Thank you, Ms. Kosmas.
    Mr. Rohrabacher.

                             Engine Design

    Mr. Rohrabacher. Thank you very much, and thank you, Madam 
Chairman, for calling this hearing. It is obviously of great 
interest to the overall public and to those of who travel every 
week on jet airplanes. I flew in last night. I would like to 
identify myself with the statement by Ranking Member Olson, who 
put this in perspective in terms of threats. What we have here 
is a threat that rarely is confronted, but when we do confront 
it, it becomes something of utmost importance because it could 
result in a tragic loss of life, and we hear this argument a 
lot on Near-Earth Objects. I mean, the chance of a meteorite 
hitting the earth, what is that. But of course if it does, it 
could kill hundreds of thousands if not millions of people, so 
these are the threats that we need to pay attention to. 
Unfortunately, and how that relates to our committee, is that 
research is skewed or at least directed towards threats that 
are a little bit more frequent than these threats that don't 
happen very often, but when they do happen, they pose a great 
danger.
    Let me ask, is there any--first of all, Mr. Dinius, your 
Sweet and Low package, you are saying that that much debris in 
a jet engine could actually bring down a plane?
    Mr. Dinius. Okay, so to clarify. No, sir, it will not.
    Mr. Rohrabacher. Okay.
    Mr. Dinius. That was just a particular example for a one-
minute time. If that same kind of concentration were to be 
taken, for instance, from London to Paris and back on five 
trips a day, you are talking multiple pounds of contaminant 
that can get in the engine to either deposit on turbine blades, 
plug cooling holes and potentially lead to failure.
    Mr. Rohrabacher. And right now is there any research 
efforts going on that would--with your company or that you know 
of in the Federal Government that is taking this threat into 
consideration in terms of jet engine design or is this 
something that is just not being addressed now?
    Mr. Dinius. Sir, from a very obvious standpoint, 
contaminants in the engine and the small cooling holes in these 
parts, the reality is, we have to keep those clean for long 
life. We expect these engines to stay on wing for 20,000 hours, 
five years. Flying through this type of debris shortens the 
life of the engine, could lead to failure. It is a cumulative 
thing. You know, you fly through it----
    Mr. Rohrabacher. Do you know of any efforts or is there 
anyone looking at this and saying here would be an engine 
design that would be less susceptible to that?
    Mr. Dinius. Not that I know of, sir.
    Mr. Rohrabacher. Anybody else know of any research like 
that? Again, this might be one of those instances where because 
the threat is not frequent, that we are paying attention to 
other threats rather than this and it may be worthy of us 
looking into that.
    Mr. Olson's experience in terms of cloud density, let me 
just ask, when we are talking about cloud density, Mr. Olson, 
that turbulence that you experienced, did that affect the 
engines of the plane or is it just the other dynamics of the 
plane?
    Mr. Olson. It did not affect the engines on the aircraft. I 
mean, the big problem that I encountered that I didn't 
appreciate was the fact that the equipment on board my aircraft 
wasn't weather radar and it was an operator who could make 
guesses, and I took that as something, okay, we can punch 
through this and decided to punch it through, but it was not 
anything that damaged the aircraft.
    Mr. Rohrabacher. So the research that we are talking about 
might--if there is a research and a scientific solution or 
something that would help might take in, for example, research 
into radar and that would then--or methodology of determining 
density of what people are flying into, the density of the air, 
the clouds, et cetera. What about materials research? Mr. 
Dinius or anyone else who would have this, is there something 
that we could do in terms of the materials that engines are 
made out of or is this simply the design of those engines?
    Mr. Dinius. I am not aware of any material work that could 
be done to avoid this at this point.
    Mr. Rohrabacher. Any other thought on that? This is a 
materials issue then, it is an actual design issue. Well, thank 
you very much for your testimony.
    Madam Chairman, again, thank you for putting together an 
expert panel for us to enlighten us on this issue, and I have 
gotten a lot out of this. Thank you.
    Chairwoman Giffords. Thank you, Mr. Rohrabacher.
    Now we are going to hear from Ms. Edwards.

                         European Consultations

    Ms. Edwards. Thank you, Madam Chairwoman, and I will tell 
you, for weeks I have been dying to say, what is it, 
Eyjafjallajokull or something.
    My question actually, Mr. Dinius, goes to you. Was GE 
Aviation consulted by the Europeans before resuming flights, 
and was NASA's DC-8 experience taken into consideration in that 
consultation?
    Mr. Dinius. So yes, we were invited to participate in a 
series of teleconferences with the FAA and the CAA over the 
weekend that followed the eruption in Iceland. We took into 
consideration the data we knew of, the DC-8 NASA, we knew of 
that one. There are other events that we have data from. It 
should be pointed out that the DC-8 event NASA had was not an 
engine failure, it was an economic impact but not an engine 
failure.

                         Detecting Contaminants

    Ms. Edwards. And I guess I am curious, on the ground like 
in testing engines, because you have to do some kind of cost-
benefit analysis, I mean, it is not as though aircraft are 
flying through volcanic ash all the time, although it is 
significant. How do you actually--how would you design and test 
an engine for whatever level of volcanic ash would be 
acceptable?
    Mr. Dinius. Ma'am, there is no certification requirements 
today for sand and dust or volcanic ash. However, you could run 
engineering tests or you can control the level of contaminants 
that are put in the engine and then see how the engine responds 
as well as look at the engine afterwards to see its condition, 
its health.
    Ms. Edwards. And over time, you could have a number of 
given contaminants that might impact an engine or other 
aircraft parts so you might know on a first run, for example, 
on one flight it might be sand, depending on where that flight 
is going. On another flight it might be volcanic ash. I think 
what the discussion hasn't come to is, what combination of 
those things, even if it is not one or the other, is there a 
combination of those kind of environmental materials that 
really could contribute to engine failure and measuring one and 
not the combination might not tell you very much about whether 
the aircraft could travel safely?
    Mr. Dinius. So the chemical constituents inside the 
volcanic ash make a difference on the failure modes. The 
melting point of the contaminant, the volcanic ash, make a 
difference. If it doesn't melt, it is not going to stick to the 
turbine blades. It may erode them but it won't stick to them. 
So that is a different failure mode than your classic sand and 
dust. We have good history with sand and dust. We understand 
how blades erode. With volcanic ash, the data is fairly sparse.

                              Human Factor

    Ms. Edwards. And Captain Orlady, one of the things that you 
pointed to was the fact that, you know, so for example, with 
volcanic ash, for one pilot it might result in itchy eyes, for 
another it might result in not being able to see out of a 
windshield where some other pilot actually might be able to see 
out of that windshield but wouldn't have itchy eyes, so there 
are a whole number of human factors that one couldn't possibly 
account for. I guess what I am getting to is that when the 
question becomes do you shut down an entire system or not, I 
think it is very hard to measure the point of your testimony 
that you get to which is do you really want to take that 
chance. I mean, it is a huge economic cost but it may be better 
to shut down the system because you could never really account 
for the factor or other human or mechanical that could 
contribute to a failed flight.
    Ms. Orlady. I think that is an accurate perception. It 
really is a multi-pronged problem. The questions that were 
asked of Mr. Dinius about the engine, perhaps----
    Chairwoman Giffords. Captain, your microphone.
    Ms. Orlady. I pushed it. We will put it closer. But it is a 
multi-prolonged problem because let us say we determine 
something with the engines and maybe we do--but that just 
doesn't solve the avionics that still need to be cooled. It 
still doesn't solve the windshield that if I can't see out of, 
even if I don't have breathing difficulties and itchy eyes, if 
I can't see out of it, then it doesn't make much difference. So 
I wish I was more optimistic but I think your description is 
correct in terms of looking at the severity, potential severity 
and consequences. We don't have much choice until we get better 
data at this point.
    Ms. Edwards. Thank you, Madam Chairwoman.
    Chairwoman Giffords. Thank you, Ms. Edwards.
    We are going to have a second round. We have got a couple 
of follow-up questions that would like the panel to answer. 
Following up on Mrs. Edwards' point about the DC-8, with us in 
the audience we have Mr. Thomas Grindle, who is a propulsion 
engineer, and I was hoping that he could come up to answer a 
couple of questions. Thank you, Mr. Grindle.

                          NASA DC-8 Experience

    A report that you wrote indicates the pilots did not notice 
anything out of the ordinary after flying through volcanic ash 
clouds. After landing, could you talk about what parts of the 
aircraft that you did look at and did any other aircraft 
besides yours go through the same areas and did they also reach 
similar no-problem conclusions?
    Mr. Grindle. Thank you, Madam Chairwoman. Yes, once we--the 
scientists on board were the ones that alerted the flight crew 
that we were currently flying a diffuse ash cloud from the 
Hekla volcano. The pilots noticed no onboard indications 
whatsoever. Engine parameters were normal. No smells in the 
cockpit. Because it was night, we looked for the St. Elmo's 
fire. No indications whatsoever. The scientists were the only 
ones because of their instrumentation on board to notice that 
we were flying through the cloud. The incident lasted for about 
seven minutes, and the aircraft continued on to Sweden.
    Once there, they contacted us back at NASA Dryden and asked 
about, you know, what they should and we recommended to do a 
complete visual inspection on all the leading surfaces of the 
airplane, the windshield, the leading edges, to look at the 
engine fan blades, engine cowls, anything that could have had 
any abrasive damage or anything. They performed those 
inspections, found no damage whatsoever. Our recommendation 
from Edwards was to then replace the air conditioning filters 
and the engine oil on all four engines and hold samples for us 
for once they returned back to NASA Dryden. They flew for about 
68 hours in Sweden doing other atmospheric research missions 
and returned back to Dryden where we were able to do a complete 
engine borescope on all four engines and there we noticed some 
clogged cooling holes and abraded leading edges on the turbine 
section. We removed one of the engines, which was getting close 
to an overhaul maintenance requirement, and sent it to the 
engine manufacturer in Strother, Kansas. They tore it down and 
found more damage inside. We then removed the other three 
engines and sent them to the same manufacturer as well, and 
upon those teardowns they found more of the same contaminations 
inside and the same damage listed in all four engines.
    Chairwoman Giffords. Mr. Grindle, can you talk about the 
lessons learned from this experience? What are the key take-
aways for us that we should be focusing on, and in your view, 
from all the knowledge and information that you have gathered, 
are these lessons actually being applied today?
    Mr. Grindle. I can only speak about the DC-8 incident which 
we had, and prior to us leaving Edwards we knew about the 
eruption and so we purposely made our course as far north as 
possible, and in fact on the way over we added another 200 
miles, so I think our total distance from the volcano was 
almost 800 miles, and at the altitude and the latest 
information we had gotten from the London Volcanic Ash Advisory 
Center, we were well north of any kind of ash cloud whatsoever, 
and upon the engine teardown and the scientific data 
evaluation, some of the particles we flew through were less 
than one micron in diameter, and even at those limits, we 
didn't experience any engine parameter failures or any 
indications whatsoever but the engine manufacturer who did the 
work specified that we probably would have started seeing 
performance degradation in some of the engines in as little as 
100 flight-hours because of the loss of cooling and other 
things.
    And as far as I know, we were the only aircraft to fly in 
that area through the ash cloud, and once we did realize we 
were in it, we updated the London center and told them that we 
had experienced it in that area and they were able to update 
their predictions in those areas as well.
    Chairwoman Giffords. Thank you.
    Mr. Grindle. Thank you.

                           Detection Systems

    Chairwoman Giffords. I have a follow-up question for either 
Dr. Strazisar or Dr. Kaye, and this builds on Mr. Olson's 
comments about having an onboard display. How far away are we 
technologically speaking or even from an implementation 
standpoint from a cost perspective for an onboard volcanic ash-
type detection system that ALPA was talking about in terms of 
really giving the pilots the information that they need? I am 
curious, I mean, do we know how to build them and do we know 
when we will have them?
    Mr. Strazisar. We are in our aviation safety program 
working constantly on instrumentation that is forward looking, 
primarily to provide better indications of weather because 
convective weather is actually on a probability basis a much 
greater problem than volcanic eruptions. Some of those forward-
looking systems have the potential to detect ash but that is 
not their primary purpose. So we are continuing to do research 
on constantly improved instrumentation. We will keep our eyes 
open in the future for any technologies that would have a side 
benefit of being able to also detect ash, but we are not 
working currently on any system specifically to detect ash.
    Chairwoman Giffords. Ms. Cox or Mr. Dinius or Dr. Kaye, any 
additional--because Captain Orlady is looking a little nervous, 
so maybe wants some reassurance that we are working on this 
technology.
    Ms. Cox. I can comment on some of the work the FAA is 
investing in with our NextGen research and our NextGen 
programs. While we are not focusing on onboard sensors on 
aircraft, we are focusing on delivering better information to 
the pilot, to the controllers, to the airline dispatchers so 
that they would all have the same information in real time that 
they could use to make better decisions collaboratively about 
how to proceed in these conditions. Reports--there was a very 
good report done by NOAA after the Mount Redoubt eruption in 
2009. It was just published this January, actually. And they 
published best practices and findings and recommendations. 
Overall, one of the best practices was web-based communications 
that they had during the Mount Redoubt eruption. Findings and 
recommendations focused in large part around better 
communication and better collaboration, so this is where our 
focus is.
    Chairwoman Giffords. Anyone else?
    Mr. Kaye. I think what I will have to do is to take an 
action to try to get additional information and report back, 
especially as to what precisely the sensors were that were 
aboard the DC-8. I don't know if we know exactly what they were 
doing that provided us some information, whether they were in 
situ measurements that actually made air sampling in the 
vicinity of the aircraft or remote sensing kinds of things. It 
is an answerable question. I just don't have that. If it is in 
situ, of course, then that becomes an issue because then you 
essential have to have a detector which if that involves 
cutting a hole in the plane, that is a whole separate set of 
issues for that, and if it is a remote sensing thing, then you 
have to find out, you know, radar is--for very small aerosol 
particles, radars typically don't work. That is the way we do a 
lot of optical wavelengths and LIDARs, but I will have to get 
back to our people and find out specifically what the 
instrumentation was that detected that and then see whether 
that is something that potentially would be applicable or not.
    Chairwoman Giffords. We would appreciate that, Dr. Kaye, if 
you could report back to the Subcommittee. Obviously we are 
interested. This is a timely hearing, and you know, the general 
public is also very interested. You know, we hadn't focused on 
this for many years but with this eruption certainly it was all 
on our radar screens.
    Mr. Olson, do you have any follow-up questions?
    Mr. Olson. Two more questions. Home stretch.

                         Future Remote Sensing

    The first one is for you, Dr. Kaye. You outlined a number 
of instruments found on orbital NASA research satellites that 
have been key towards helping understand the composition 
physics of volcanic plumes. What is the future of doing these 
kinds of capabilities from space related to what is the 
likelihood that NOAA or the USGS will be able to absorb these 
capabilities into their own operational systems?
    Mr. Kaye. A number of the sensors that we have and the 
satellites that we have are past their--what we call their 
prime life period. They are in extended operations. But thanks 
to good engineering, we can nurture these things for quite a 
while, the satellites, for a very long period of time. There is 
some evolution that is planned, future satellites that we have 
planned, the Glory satellite, which is specifically designed to 
measure aerosols using polar metric technique, so that will add 
significantly to our body of knowledge because those 
observations will help provide information not just about 
aerosol presence, where something is, but what something is, 
which is very important as well, especially for initializing 
models.
    For including a lot of the optical infrared observations 
that are done through our modus instrument, the NPP mission, we 
will do the launch in 2011, we will continue those, and that is 
a precursor to the Joint Polar Satellite System, which will 
provide enhanced operational capability into the future.
    There are some other things that we do that there is no 
sort of near-term plans but people look at in the long term. We 
use multi-angle viewing with the MISR instrument that looks in 
nine different directions and helps provide information about 
altitude, composition. One of our decadal survey missions, the 
ACE mission would use multiple-angle techniques but that one is 
further out into the future, and one of the neat things that we 
have right now is the Calypso. It is a LIDAR-based measurement 
which can get very accurate and very precise information about 
thin layers. It looks straight down but it is an optical 
equivalent of radar so you can see very thin layers and know 
precisely what altitude they are at. That has been flying since 
2006, and we don't have--the next LIDAR I think that we will be 
looking at for aerosol purposes would be also the ACE mission, 
which is one of the DOD decadal survey missions.
    One thing I can say is that for a lot of these things we 
don't have to go it alone. There is a good record of data 
sharing with our international partners to the extent that the 
Europeans will do things or the Japanese will do something, the 
Europeans in particular I think are looking at LIDAR missions. 
So we will have some opportunities there.
    You mentioned U.S. Geological Survey. I haven't talked 
about them. They have the primary responsibility for surface-
based measurements, especially about what is going on and at 
the surface of volcanoes, so that is a different kind of thing 
than what we normally do. We work with them on land cover 
observations as well and that is a good relationship.

                               Priorities

    Mr. Olson. Thank you very much. One last question, and I 
don't mean to put words in your mouth but given the constrained 
spending environment we are dealing with up here, if we had to 
prioritize our efforts going forward, what do you believe makes 
the most sense? And I think the group, if I could summarize, 
and if you disagree with this, please hit the button and chime 
in. But I think the first priority should be developing 
technology both on board and within the aircraft tracking 
system, get real-time information to the pilots as these 
volcanic plumes developed. The second priority should be 
develop a better understanding of engine performance and 
degradation, and the third priority should be trying to harden 
the engines and make them where they can fly through things 
that they probably can't fly through now. And again, to me that 
seems to be the consensus here of our priorities going forward 
with our limited dollars. If anybody has a disagreement with 
that, I would certainly like to hear it. All right. Amen. Thank 
you very much.
    Chairwoman Giffords. Thank you, Mr. Olson. Before we bring 
this hearing to a close, I want to thank all of our witnesses 
for being here. We have just scratched the surface today. The 
Subcommittee hearing is timely. Obviously your expertise is an 
asset and a real value to the Congress, to the American people 
and to the international community as well. So we look forward 
to any additional information that you would have for us, 
updates of course we would welcome, and thank you for taking 
time out of your busy schedules to be here, and Mr. Grindle as 
well, thank you for coming in from California. We very much 
appreciate all that you do to keep our skies safe. We sincerely 
appreciate it. And again, as mentioned many times, this is an 
unusual incident but the potential of catastrophic loss of life 
and risk to the airline industry is great, so we appreciate 
particularly Captain Orlady. Again, I think because all of us 
commute so much, we really feel like we have a personal 
relationship with all of our pilots, so appreciate everything 
you do on behalf of all of our airline pilots and of course all 
the flight attendants and everyone who we, you know, spend a 
lot of our time with as well.
    The record will remain open for two weeks, so if there are 
any additional statements from members and any answers to any 
of the questions that we would like our witnesses to follow up 
on, please submit that for the record.
    The witnesses are excused and the hearing is now adjourned. 
Thank you again.
    [Whereupon, at 11:23 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Tony Strazisar, Senior Technical Advisor, Aeronautics 
        Research Mission Directorate, National Aeronautics and Space 
        Administration

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  It is clear that from the difficulties European aviation 
regulators experienced while deciding when to reopen airspace, some 
fundamental data was missing. Yet, the negative impact of flying into 
volcanic ash clouds has been demonstrated. And, thanks to NASA, we have 
been warned that engines may not show signs of damage until after 100 
flying hours. So why do you think there hasn't been greater focus on 
this area by the world's aeronautics research community? What research 
needs to be performed?

A1. We believe there has not been greater focus on the issue of 
commercial aircraft operations in and around volcanic ash clouds 
because an event such as the recent eruption in Iceland is rare. 
Hazardous weather conditions such as convective weather (thunderstorms) 
and icing pose daily disruptions to commercial air traffic around the 
world. As a result, the aviation community has focused research and 
development efforts on the development of capabilities such as airborne 
and ground weather radar, air traffic re-routing procedures, and 
aircraft icing protection systems. Satellite assets are capable of 
detecting volcanic ash clouds, but the dispersion of the cloud and the 
concentration of ash are difficult to accurately predict with current 
weather modeling capability. Research leading to improved prediction of 
ash cloud extent and ash concentration within the cloud would enable 
more accurate air traffic re-routing to avoid flying into airspace in 
which ash concentrations are unacceptable.

Q2.  What technology is needed such that aircraft can have onboard 
warning of volcanic ash conditions? What research is needed to develop 
and demonstrate that technology? Who should perform such research?

A2. Technologies capable of detecting small-diameter particles 
suspended in the atmosphere are required if onboard indication of 
volcanic ash conditions is desired. Although techniques such as Cloud 
Physics Lidar and Visible Infrared Imaging Spectrometry are available 
for NASA research aircraft, it would be prohibitively expensive to 
equip the commercial aircraft fleet with such capability. NASA 
continues to develop capability for airborne forward-looking sensing of 
atmospheric hazards. This research is looking across a suite of state-
of-the-art sensing technologies that have potential to detect various 
hazards types, which could include volcanic ash. Improvements in 
technologies such as LiDAR (Light Detection and Ranging), FLI (Forward-
Looking Interferometry), and X-band radar hold potential for detecting 
volcanic ash and aiding pilots to determine the safety of flight 
through volcanic ash areas. Current NASA aviation safety research on 
LiDAR seeks, encourages, and emphasizes the ability to detect multiple 
hazards (which to date have primarily included icing, wake turbulence, 
and limited visibility). Some current research, such as the forward-
looking interferometer research, has looked at volcanic ash detection 
capability. NASA will continue to support the development of sensing 
technology capable of detecting multiple hazards, including volcanic 
ash. This month EasyJet airlines announced plans to test a system 
consisting of two infrared sensors carried in a plane's tail fin http:/
/www.guardian.co.uk/world/2010/jun/04/easvjet-volcanic-ash-radar. The 
system, developed by the Norwegian Institute for Air Research, has the 
potential to detect volcanic ash particles up to 62 miles ahead of a 
plane's flight path.
    As an alternative to onboard ash detection, research leading to 
improved forecasting of plume location and ash concentration would be 
beneficial. Improved plume prediction models would enable the Volcanic 
Ash Advisory Centers (VAAC) to pass more accurate information through 
the aviation advisory capability of the aeronautical fixed services 
operated by the Federal Aviation Administration so that plume location 
information could be used for flight planning for plume avoidance. The 
NASA Science Mission Directorate testimony outlined several improved 
modeling activities.

Q3.  It is probably impractical and uneconomical to design a jet engine 
that can withstand all volcanic ash conditions. From what we know about 
aircraft engines, aviation safety, and the economics of the airline 
industry, what is the best that we can expect from future engine 
technology improvements?

A3. The most immediate effect on a modern aircraft engine of ingesting 
volcanic ash is the melting of the ash in the hot section of the 
engine. The ash then forms glassy deposits that alter the airflow 
through the turbine blades downstream of the combustor. Continued 
buildup of these deposits can restrict airflow through the engine and 
cause the engine to stall. In several well-publicized incidents, engine 
stall has occurred in a matter of minutes after passing through severe 
concentrations of ash. In addition, volcanic ash can clog the cooling 
holes and damage the thermal barrier coatings which are used to protect 
the turbine blades from combustor exhaust temperatures that exceed the 
melting point of an unprotected blade. This reduced thermal protection 
can over a longer period of time reduce the remaining safe life of the 
turbine components. To increase cycle efficiency and reduce fuel bum, 
future engine technology is pushing toward ever-increasing combustor 
exit temperatures, which will only exacerbate the problems caused by 
melting ash and reduced cooling system performance. There is current 
research on adaptive engine technology being performed under the DOD 
Versatile Affordable Advanced Turbine Engine (VAATE) initiative. This 
research is developing technology to enable gas turbine engines to 
alter their operating mode to adapt to varying mission requirements. 
Once these technologies are demonstrated for military applications they 
may find their way into commercial applications and could enable an 
engine to re-configure its operating conditions in response to the 
accumulation of ash deposits and a reduction of cooling flows to 
turbine components. This technology is several years away from reaching 
a maturity level at which it could be included in new commercial 
aircraft engine designs.

Q4.  Captain Orlady indicated in her statement that Alaskan Airlines 
has developed extensive classroom and scenario-based simulator training 
that provides crews with effective tools and techniques that can be 
used in the event of inadvertent airborne ash cloud exposure. 
Considering NASA's unique expertise in human factors in aviation, is 
there value in more focused research on developing technologies that 
can simulate volcanic ash conditions to pilots and crew?

A4. There is value in educating pilots and crew in proper procedures to 
follow in the event that an unintended encounter with a volcanic ash 
cloud impacts engine performance. However, it is not clear that any 
additional research on simulating ash conditions is required. In the 
late 1980s and early 1990s, research on the effects of dust ingestion 
on gas turbine engine performance was led by Dr. Michael Dunn at the 
Caispan Corporation in Buffalo, N.Y. Dr. Dunn is currently at Ohio 
State University. Dr. Dunn used volcanic ash as a source of dust during 
those investigations. In the course of that research, Dr. Dunn 
discovered that glassy deposits of volcanic ash that accumulated on the 
surface of turbine blades could be cleared by reducing engine power to 
idle and then returning to a cruise throttle setting. During the brief 
return to idle the turbine blades cooled and shrank slightly, causing 
the glassy ash deposits to break off. This finding was incorporated in 
a flight crew briefing video created by the Boeing Company in 1992, 
Volcanic ash avoidance--flight crew briefing: Boeing Commercial 
Airplane Group, Customer Training and Flight Operations Support, which 
is available as Video 4V703 from the International Civil Aviation 
Organization (ICAO). The video discusses what pilots and airline 
dispatchers can do to avoid volcanic eruption clouds, and the 
recommended steps a pilot should take in the event of an unexpected 
encounter. This training video also shows how volcanic ash can affect 
jet aircraft and provides a pilot's first-hand account of an incident 
in which a Boeing 747 encountered an eruption cloud and temporarily 
lost power in all four engines. ICAO provides translations of the video 
into French, Russian, and Spanish. Presently, neither that video nor 
other volcanic-ash information developed by airframe and engine 
manufacturers is mandated for inclusion in training material for 
pilots. http://volcanoes.usgs.gov/ash/trans/
aviation<INF>-</INF>threat.html

Q5.  To what extent are Federal research programs on aircraft flying 
though volcanic ash coordinated, and how easy or difficult is it to 
share the research results with relevant stakeholders? What about 
coordination with non-U.S. research programs?

A5. Federal agencies including the Federal Aviation Administration 
(FAA), NASA, the National Oceanic and Atmospheric Administration, the 
National Weather Service, and the National Satellite, Data, and 
Information Service are working to improve the state-of-the-art of the 
global transport models needed to accurately predict volcanic ash plume 
location and dispersion.
    Information has been shared through two international forums to 
date--one in Seattle, Washington in 1991 and a second in Alexandria, 
Virginia in 2004.
    The International Civil Aviation Organization (ICAO) continues to 
advocate increased scientific understanding of ash cloud dynamics. In 
May 2010 ICAO called for establishment of the International Volcanic 
Ash Task Force (IVATF) to develop during the next year a global safety 
risk management framework that will make it possible to determine the 
safe levels of operation in airspace contaminated by volcanic ash. The 
IVATF will closely coordinate with ICAO's International Airways 
Volcanic Watch Operational Procedures Study Group and ICAO's European 
and North Atlantic Volcanic Ash Task Force. Mr. Steve Albersheim of the 
FAA has been nominated to represent the United States on the IAVTF and 
will coordinate U.S. participation in the task force activities.
                   Answers to Post-Hearing Questions
Responses by Dr. Jack A. Kaye, Earth Science Division, National 
        Aeronautics and Space Administration

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  I understand that NASA's MODIS instrument that is flying aboard 
the Terra satellite has collected data that provided information on the 
horizontal as well as the vertical extent of the volcanic ash plume 
over Iceland. To what extent will future planned instruments be capable 
of maintaining these types of observations?

A1. The Terra platform, launched in 1999, has two instruments that 
provide information about atmospheric particulates: the Moderate 
Resolution Imaging Spectroradiometer (MODIS) (http://
modis.gsfc.nasa.gov/) and the Multi-Angle Imaging SpectroRadiometer 
(MISR) instrument (http://www-misr.ipl.nasa.gov/). The MODIS instrument 
on Terra and its twin on the Aqua satellite provide information about 
the horizontal and temporal variability of aerosols, but do not provide 
information about their vertical location. However, the MISR 
instrument, which is unique to Terra, has demonstrated global 
stereoscopic measurement of the heights of many volcanic plumes, 
including Eyjafjallajokull. MISR makes height estimates by taking 
measurements at nine different viewing angles, ranging from 70.5 
degrees in front of the spacecraft to 70.5 degrees behind it. The 
multi-angle and multispectral capability of MISR also allows additional 
information to be acquired such as wind speed in the plumes and 
particle properties such as size and shape.
    The Visible Infrared Imaging Radiometer Suite (VIIRS) instrument 
will continue the MODIS observations of the horizontal extent of 
volcanic ash clouds. The Ozone Mapping and Profiling Suite (OMPS) will 
continue the Ozone Monitoring Instrument's (OMI) measurements of 
volcanic ash and volcanic sulfur dioxide. Both instruments, VIIRS & 
OMPS will fly first on NASA's NPOESS Preparatory Project (NPP) mission 
in late 2011 and then on subsequent Joint Polar Satellite System (JPSS) 
missions.
    The next NASA mission that might produce a data set using both 
multispectral (like MODIS) and multi-angle (like MISR) approaches is 
the Aerosol/Cloud/Ecosystems (ACE) Mission (http://dsm.gsfc.nasa.gov/
ace/index.html), described by the National Research Council in its 2007 
Decadal Survey (Earth Science and Applications from Space: National 
Imperatives for the Next Decade and Beyond). The ACE mission is one of 
the Survey's ``Tier 2'' missions, and no launch date is currently 
scheduled. NASA is currently investing in technology through its Earth 
Science Technology Office in order to advance the techniques and 
instrumentation that will ultimately be part of the ACE mission (see 
ACE-related links in http://esto.nasa.gov/
about<INF>-</INF>esto<INF>-</INF>documents.html). Infrared observations 
from current (e.g. the AIRS instrument on NASA's AQUA satellite) and 
future research (e.g. the CRIS instrument aboard NPP) as well as 
operational (e.g. the IASI instrument aboard MetOp) instruments also 
contribute to our knowledge of volcanic gases and ash.

Q2.  How challenging is it to fuse data from weather satellites, 
volcano observatories on the ground and science instruments in orbit? 
Is it mostly a technical issue or are there organizational 
considerations?

A2. The fusion of data from different types of instruments and 
platforms for scientific and/or operational uses certainly constitutes 
a technical challenge and can constitute an organizational one as well. 
Scientifically, the fusion of very different data types is best done 
within the context of a data assimilation system. The more different 
the data type, the greater the challenge in the assimilation process 
simply because they measure different aspects of the environment. These 
challenges include addressing differences in data formats, spatial 
resolution, measurement uncertainties, and temporal coverage among the 
data sources, along with subtle differences in the actual quantities 
being measured. Scientists at NASA and other Federal agencies, most 
notably the National Oceanic and Atmospheric Administration (NOAA), 
have significant capability in data assimilation. At NASA, most data 
assimilation expertise resides within the Global Modeling and 
Assimilation Office at the Goddard Space Flight Center--see http://
gmao.gsfc.nasa.gov/. Most of NASA's efforts in data assimilation have 
emphasized atmospheric (meteorology, i.e., temperature, moisture, 
winds, and non-volcanic aerosols) and also oceanic and land surface 
data; assimilation of atmospheric aerosols is currently under 
development.
    While satellite measurements are important for constraining the 
aerosol composition of the atmosphere on a global scale, much 
information about the timing and intensity of the volcanic emissions 
(most notably ash and sulphur dioxide) can be obtained from ground-
based volcanic observatory data. The improved information of a volcanic 
event afforded by accurate surface emissions greatly enhances our 
ability to utilize the satellite-based measurements. Although volcanic 
emissions have been incorporated in retrospective data assimilation of 
the climate record, global multi-agency coordination is still necessary 
for this information to be utilized in near real time applications. In 
order for NASA's observation and model results to be most useful for 
operational purposes, continuing and enhanced cooperation between NASA 
personnel and the those of the Volcanic Ash Advisory Centers (VAACs), 
building on current successes, will be necessary.
    Substantial organizational challenges do not exist, in part owing 
to long-time investments in comprehensive data systems, format 
standards, and multi-agency science centers such as the Joint Center 
for Satellite Data Assimilation and Short-term Prediction Research and 
Transition Center (SPoRT).

Q3.  It has been reported that Europe needs better models to predict 
the path of volcanic ash and that this had been done in other parts of 
the world. I understand that more accurate models would allow us to be 
surgical in what airspace to close down and what to keep open. So how 
does one make a model ``better''? Is more empirical data what is needed 
to verify the model's accuracy? What is the most effective way to 
collect such empirical data?

A3. There are several approaches which can be used to improve forecast 
models. The first step is to improve the initial conditions for such 
models so that they start off from conditions as close to reality as 
possible. For the volcanic ash case, that means knowledge about the 
spatial distribution of particulates and gas phase molecules ejected by 
the volcano, as well as the underlying meteorology (temperature, 
moisture, clouds) in near-real time. For particulates, it is important 
to know not only where they occur, but also their properties (size, 
chemical composition, radiative properties). The discrimination of ash 
from condensate clouds both horizontally, and especially vertically, is 
also important. Other improvements in models can come from sustained 
use of observations and advances in theory and modeling approaches in 
order to improve the representation of atmospheric processes and 
quantitative evaluation of models. Frequently, it is through detailed 
comparison of observations with models that modelers best understand 
the shortcomings of the models and can focus their energies on their 
improvement. The availability of such data is particularly important 
when there are only a limited number of case studies for comparison, 
which is the case when dealing with major volcanic clouds. These data 
are obtained from diverse sources: geosynchronous satellite imagers, 
multi-spectral techniques, polar-orbiting satellite instruments, and 
high-altitude airborne lidar, creating data fusion challenges. Model 
improvement can also come from the ability to resolve more fully the 
processes represented in them and the spatial scales at which they 
operate. Achieving enhanced resolution in these areas is dependent on 
the availability of adequate computational resources, without which 
approximations that may degrade model quality are required. The 
development, improvement, and utilization of forecast models is a 
labor-intensive effort that requires sustained effort by a multi-
disciplinary team able to harness the power of observations, theory, 
and computation to provide results for real-time use.
                   Answers to Post-Hearing Questions
Responses by Ms. Victoria Cox, Senior Vice President, Nextgen and 
        Operations Planning, Air Traffic Organization, Federal Aviation 
        Administration

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  The FAA Administrator was reported to have suggested that Europe 
take the lead in establishing a standard for future volcano situations 
but offered FAA's technical assistance. What type of technical 
assistance was he referring to and why does he believe Europe should be 
taking the lead in establishing a standard?

A1. The FAA will provide assistance to the European community in 
establishing a standard for situations related to volcanic eruptions. 
This assistance involves many different levels of expertise. The FAA 
has already established a team of experts who will be supporting the 
FAA on the International Civil Aviation Organization (ICAO) Volcanic 
Ash Task Force. The FAA will work in a collaborative decision making 
process through the ICAO on the establishment of any global standards 
for volcanic ash in support of aviation. Specifically, the FAA in 
consultation with the NOAA/NWS/NESDIS will examine the current state-of 
the-art of global transport models and define the operational 
performance requirements for these models for decision support tools 
for operators. In addition, the FAA will work collaboratively with the 
United States Geological Survey on the development of good scientific 
practices for any proposed international standards that support 
modeling.

Q2.  What was the extent of FAA's consultation with international 
aviation regulatory agencies and aircraft manufacturers in developing 
the Special Airworthiness Information Bulletin on volcanic ash 
operations FAA released on April 22, 2010?

A2. The FAA participated in a series of international volcanic ash 
teleconferences that started on April 17, 2010. On April 22, the FAA 
issued Special Airworthiness Information Bulletin (SAIB) NE-10-28 after 
close consultation with European and Canadian regulatory agencies and 
aviation industry. The FAA worked closely with the European Aviation 
Safety Agency as each authority shared their draft safety bulletins 
with each other. The regulatory agencies and industry reached consensus 
prior to final issuance of our respective bulletins. In addition, the 
FAA held separate teleconferences with engine manufacturers to assure a 
coordinated industry/regulator response. The FAA also requested each of 
the manufacturers to issue immediate guidance to the airlines on 
inspections after an ash encounter.

Q3.  To what extent are Federal research programs on aircraft flying 
through volcanic ash coordinated, and how easy or difficult is it to 
share the research results with relevant stakeholders? What about 
coordination with non-U.S. research programs?

A3. The FAA does not sponsor any specific Federal research program that 
addresses aircraft flying through volcanic ash. There is research 
supported by other Federal agencies that examines the state-of-the-art 
in modeling, forecasting, and using remote sensing to provide greater 
accuracy on the location of ash clouds. These combined programs result 
in a body of knowledge that supports the issuance of warning messages 
to avoid or mitigate ash encounters. Similar to our work in forecasting 
convective weather, this research is focused on ash avoidance--not on 
engine tolerance. The International Civil Aviation Organization, the 
World Meteorological Organization, and the International Union Geodesy 
and Geophysics work collaboratively to promote scientific understanding 
of volcanic eruptions and subsequent ash clouds that affect aviation. 
The information is shared at international fora and through peer review 
of published papers. All information garnered from these fora are 
shared with all interested stakeholders.

Q4.  As you know, the National Weather Service's (NWS) Volcanic Ash 
Advisory Centers (VAAC) and Meteorological Watch Offices (MWO) provide 
warnings and advisories to the aviation industry regarding volcanic ash 
hazards. Such weather products area a vital component of FAA's air 
traffic control system.

        a.  During recent volcanic ash incidents, how would you 
        characterize the role of the NWS and the working relationship 
        between FAA and NWS?

A4a. The FAA and NWS work collaboratively in a positive manner on 
detecting and reporting volcanic ash that can pose a hazard to 
aviation. As you have noted, the NWS provides advisories and warning 
messages from VAAC and the MWO respectively. The FAA's responsibility 
is to disseminate the information to flight crews and airline operation 
centers. The FAA operates and maintains the aeronautical fixed services 
(AFS) that disseminate all ICAO-compliant messages to stakeholders. 
These messages receive high priority distribution over the AFS and are 
immediately integrated into support decision tools for flight planning 
purposes.
    With regard to the eruption of Mount Eyjafjallajokull, the NWS had 
no direct involvement because the ash cloud did not affect a U.S. 
Flight Information Region under the responsibility of a NWS VAAC. The 
role of the Washington VAAC was to advise users to check the London 
VAAC for information on the ash cloud. The FAA also worked 
collaboratively with National Air Traffic Services on contingency plans 
for the overseas tracks that were available to avoid the ash cloud.

        b.  How did the NWS work products mitigate the impact these 
        incidents had on aviation?

A4b. Although the ash cloud that resulted from the eruption of Mount 
Eyjafjallajokull did not affect a U.S. Flight Information Region, the 
Washington VAAC, if requested by the FAA, would provide any pertinent 
information in support of traffic flow management as to how the ash 
cloud might affect operations.
                   Answers to Post-Hearing Questions
Responses by Captain Linda M. Orlady, Executive Air Safety Vice Chair, 
        Air Line Pilots Association, International

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  A Wall Street Journal article reported the following:

                 Meanwhile, commercial pilot groups remain concerned 
                about the safety implications of the current situation. 
                For instance, the Air Line Pilots Association, the 
                largest pilot union in North America, on Friday warned 
                members to identify alternate or escape routes to avoid 
                ash clouds. Descending and turning around is 
                recommended by the union, rather than climbing through 
                such clouds. Upon encountering volcanic debris, ALPA 
                recommends that pilots reduce engine thrust to idle and 
                don oxygen masks. And the union's update stressed that 
                if an engine shuts down, it may take longer and be 
                harder to restart than normal.

     Is such a warning from ALPA unusual? What has been the feedback 
from your members?

A1. Safety guidance provided by ALPA to its member pilots is not 
unusual. When ALPA becomes aware of a safety concern such as a 
potential volcanic eruption which could have an immediate impact to a 
broad spectrum of our members, the applicable information is then 
distributed to our members via ALPA Safety Alerts and/or Operational 
Bulletins. For example, since 2005 ALPA has issued 64 Safety Alerts and 
Operational Bulletins, four of which have been related to volcanic 
activity. In the case of potential volcanic ash encounters, the 
guidance provided by ALPA is considered by its members as useful backup 
information which is complementary and consistent with guidance from 
operators, aircraft manufactures and the FAA. The feedback received 
from our membership is that these Safety Alerts and Operational 
Bulletins are quite helpful and are often shared with the management of 
their airline for further dissemination.

Q2.  In your statement, you raised an issue that has been seldom 
mentioned by the media following the Icelandic volcano eruption, namely 
that volcanic gases such as Sulfur Dioxide (SO<INF>2</INF>) or Hydrogen 
Sulfide (H<INF>2</INF>S) could pose potential health hazards to 
passengers and crews. Who do you believe should be conducting research 
in the health effects of volcanic ash on aircraft passengers and crews?

A2. ALPA believes the FAA should take the lead in sponsoring and 
conducting research on the effects of volcanic gases on aircraft 
occupants, and in particular the FAA Civil Aerospace Medical Institute 
(CAMI) located in Oklahoma City. CAMI is the medical certification, 
research, education, and occupational health wing of the FAA's Office 
of Aerospace Medicine. The goal of CAMI is to enhance aviation safety.

Q3.  At the hearing, we discussed the need for onboard warning of 
volcanic ash conditions. How high a priority is it for pilots that we 
have such an airborne capability?

A3. Currently aircraft weather radar systems cannot detect volcanic ash 
clouds. Consequently, at night or in low visibility conditions, pilots 
have no way of knowing where the potential danger areas are other than 
by weather forecast or reports from other pilots who have encountered 
the ash cloud. Forecast information is by its nature an estimation 
rather than a direct observation of actual conditions. Even reports 
from other pilots do not necessarily reflect what may be occurring 
immediately around another aircraft. If in the future, pilots are 
expected to consider operations in some scientifically pre-determined 
acceptable levels of volcanic ash concentration, then there must be 
some onboard sensing and warning capability to enable the pilot to 
remain clear of the danger areas. Until such capabilities are available 
to the pilots, flight into known volcanic ash areas of any 
concentration level is to be avoided.

Questions submitted by Representative Pete Olson

Q1.  Your statement emphasized the importance of developing 
standardized data products for use by flight crews, dispatchers and air 
traffic controllers to track volcanic clouds. Presumably, your peers at 
other carriers here and abroad would similarly benefit from a common 
set of standards and definitions. What organization, in your view, 
should lead this effort, and why hasn't this type of standardized data 
format already been implemented?

A1. In our view, the FAA would be the lead organization within the U.S. 
for coordinating the development of standardized data products to track 
and detect volcanic ash clouds. And to effectively achieve a global 
standardization of definitions and products, the International Civil 
Aviation Organization (ICAO) would lead with the FAA participating. The 
FAA can better answer the status of any such activity and why products, 
if available, have not already been implemented.

Q2.  Following resumption of air operations in Europe, including 
flights into or near airspace containing volcanic ash, what has been 
the anecdotal experience of operators and flight crews? Are they seeing 
any surprises with respect to engine damage, abrasion, or degradation 
of other aircraft systems? Have air service authorities become more 
adept at coordinating traffic? Have the volcanic could models proved 
reliable?

A2. Since the resumption of air operations in Europe we have seen a 
heightened awareness by the aircrews concerning the potential dangers 
of volcanic ash encounters. There has also been significant activity 
among the European aviation regulators and industry to determine if an 
acceptable concentration level of volcanic ash can be established for 
safe flight. But until any new policy or technology is provided, we 
have advised our membership to stay fully cognizant of and to abide by 
their particular airline's policy for flight in the vicinity of 
volcanic ash. To the best of our knowledge the U.S. air carriers and 
the FAA, although looking into the matter, have not changed their 
previous policies that flight into known volcanic ash conditions is to 
be avoided. Consequently, we have not seen a rise in the amount of 
damage to aircraft due to inadvertent volcanic ash encounters. We are 
not aware if there has been any change in the difficulty of 
coordination of air traffic with respect to volcanic activity or if the 
forecast models have been updated. However, we are concerned that 
flight safety would be compromised if new policies are implemented 
where pilots are expected to enter into known areas of volcanic ash 
concentration, yet are not equipped with the means to measure if the 
concentration levels are within pre-determined acceptable thresholds.
                   Answers to Post-Hearing Questions
Responses by Mr. Roger Dinius, Flight Safety Director, GE Aviation

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  It is probably impractical and uneconomical to design a jet engine 
that can withstand all volcanic ash conditions. From what we know about 
aircraft engines, aviation safety, and the economics of the airline 
industry, what is the best that we can expect from future engine 
technology improvements?

A1. Today GE & our partners have approximately 25,000 engines operating 
world wide in commercial service. It is expected to be economically 
impractical for all engines in the fleet to be retrofitted if a 
``volcanic ash kit'' were identified.
    It is not anticipated that significant technology advances will be 
made to ``harden'' modern commercial turbojet engines to volcanic ash 
exposure. There is not an anticipated commercial market for an engine 
robust to volcanic ash, if it costs any more than today's engines. 
Technologies would be required to: 1) eliminate the need for hot 
section cooling, 2) an ``ash-phobic'' coating would be required on all 
hot section components, and 3) advances would be required in anti-
erosion materials. Additionally, oil system components would need to be 
designed to be robust to ash contamination.

Q2.  Captain Orlady indicated in her statement that aircraft 
certification requirements will need to be updated to provide for more 
ruggedized aircraft health monitoring systems and management processes. 
Recognizing that GE aircraft engines are part of the aircraft's overall 
system, what are your views on Captain Orlady's suggestion?

A2. If the industry elects intentionally fly into volcanic ash, a 
``history record'' will likely be required to keep track of the 
volcanic ash exposure. This ``history record'' will likely involve a 
volcanic ash exposure record that will likely be a function of power 
setting of engine, engine operability margin available, local ash 
concentration and exposure time. Today, technology does not support a 
sensor that can determine the local ash concentration on-board 
commercial aircraft. This is not expected to be operationally 
economical, and it will likely degrade overall aviation safety. GE does 
not recommend flight into visible volcanic ash.

Q3.  I understand that engine manufacturers and international aviation 
regulators had been in discussion for a few years on trying to 
establish the concentration level of volcanic ash an engine could 
tolerate without causing a safety hazard. Six days after the closure of 
European airspace, consensus was reached. Why was consensus so 
difficult to achieve and what finally precipitated an agreement?

A3. GE was not involved in establishing an engine tolerance level for 
volcanic ash over the past few years, until April 16, 2010. The 
difficulty in establishing a tolerable level of volcanic ash centers on 
the assumption that a concentration level is all that is important to 
understand engine damage. Actually it is only one of several factors 
critical to assess the impact. It is anticipated to understand engine 
tolerance requires knowledge of exposure time, engine condition prior 
to encounter, particle size distribution, and ash chemistry. The 
airspace closure over Europe brought engine manufacturers and 
government agencies together to assess available data to establish the 
current interim ash concentration limits. Long-term engine impacts of 
operations in these levels of volcanic are unknown. GE continues to 
recommend against flight in visual volcanic ash.

Questions submitted by Representative Pete Olson

Q1.  Your written statement noted that it is `acceptable' for jets to 
fly through volcanic clouds having ash equal to or less than 2 
milligrams per cubic meter. What do you mean by using the term 
`acceptable'? Are modem turbojet engines capable of operating in such 
an environment without enduring any lasting, long-term damage? Would 
operators be at risk of having to overhaul their engines on a shorter 
cycle because of this level of exposure?

A1. ``Acceptable'' here referred to a qualitative engine impact 
assessment where engines impacts are limited to economic impacts and 
not operational safety impacts. If engines are operated in volcanic ash 
environments, up to 2 milligrams per cubic meter, cumulative engine 
damage is anticipated which will drive engines off wing early and 
require a shop level overhaul to restore engine performance. GE does 
not recommend flight into visible volcanic ash.

Q2.  Following resumption of air operations in Europe, including 
flights into or near airspace containing volcanic ash, what has been 
the anecdotal experience of operators and flight crews? Are they seeing 
any surprises with respect to engine damage, abrasion, or degradation 
of other aircraft systems? Have air service authorities become more 
adept at coordinating traffic?

A2. No unserviceable conditions have been observed to date from 
volcanic ash exposure following the April 2010 Icelandic volcanic 
activity, to my knowledge. No flight crew reports of volcanic ash 
encounters impacting engine operation have been reported, to my 
knowledge. Based on inspection results to date engines accumulated ash, 
but not to a point of being unserviceable. I don't have an expertise in 
air traffic or the air service authorities capabilities, so can't 
comment on their past or current capabilities.




</pre></body></html>
